<html>
<title> - SECURING EDUCATIONAL OPPORTUNITIES FOR NATIVE AMERICAN COLLEGE STUDENTS: THE NATIVE AMERICAN EDUCATION ACT OF 2012</title>
<body><pre>[Senate Hearing 112-929]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-929
 
                SECURING EDUCATIONAL OPPORTUNITIES FOR 
                  NATIVE AMERICAN COLLEGE STUDENTS: THE 
                  NATIVE AMERICAN EDUCATION ACT OF 
                                  2012

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING HOW WE FUND EDUCATIONAL INSTITUTIONS THAT OPERATE UNDER A 
MANDATE TO PROVIDE FREE TUITION FOR NATIVE AMERICAN STUDENTS, FOCUSING 
  ON ADVANCING EDUCATIONAL OPPORTUNITIES FOR NATIVE AMERICAN STUDENTS

                               __________

                      AUGUST 22, 2012 (Denver, CO)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
                                
[GRAPHIC NOT AVAILABLE FOR TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

          
                          U.S. GOVERNMENT PUBLISHING OFFICE
93-804 PDF                     WASHINGTON : 2015                          
          
          
_______________________________________________________________________________________          
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
RICHARD BLUMENTHAL, Connecticut

                                     MICHAEL B. ENZI, Wyoming
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     JOHN McCAIN, Arizona
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                       
              Pamela Smith, Staff Director, Chief Counsel
                 Lauren McFerran, Deputy Staff Director
              Frank Macchiarola, Republican Staff Director

                                  (ii)

  

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       WEDNESDAY, AUGUST 22, 2012

                                                                   Page

                            Committee Member

Bennet, Hon. Michael F., Chairman, a U.S. Senator from the State 
  of Colorado, opening statement.................................     1

                                 Guest

Campbell, Hon. Ben Nighthorse, a U.S. Senator from the State of 
  Colorado (Retired), statement..................................    44
    Prepared statement...........................................    44

                           Witnesses--Panel I

Mendoza, William, Director, White House Initiative on American 
  Indian and Alaska Native Education, Washington, DC.............     3
    Prepared statement...........................................     5
Garcia, Hon. Joseph A., Lieutenant Governor, State of Colorado, 
  Denver, CO.....................................................     8
    Prepared statement...........................................    10

                          Witnesses--Panel II

Thomas, Dene Kay, Ph.D., President, Fort Lewis College, Durango, 
  CO.............................................................    17
    Prepared statement...........................................    18
Johnson, Jacqueline R., Ph.D., Chancellor, University of 
  Minnesota Morris, Morris, MN...................................    20
    Prepared statement...........................................    23
Echohawk, John E., Executive Director, Native American Rights 
  Fund, Boulder, CO..............................................    27
    Prepared statement...........................................    28
Tsabetsaye, Byron, Student Body President, Fort Lewis College, 
  Durango, CO....................................................    34
    Prepared statement...........................................    35

                          ADDITIONAL MATERIAL

Statements, articles, publications, etc.:
    Lewis Wittry, Vice President, Associated Students of Fort 
      Lewis College..............................................    52
    National Congress of American Indians........................    53
Letters of Support:
    John W. Hickenlooper, Governor, State of Colorado, Denver CO.    55
    Hereford Percy, Chairman, Colorado Commission on Higher 
      Education, Denver, CO......................................    56
    Chad Smith, Principal, Chief Cherokee Nation<SUP>TM</SUP>....    57
    Hon. Joseph A. Garcia........................................    57
    John E. Echohawk.............................................    58
    Alysha Guthrie...............................................    59
    Noel Altaha, White Mountain Apache Tribe, Class of 2013......    59

                                 (iii)
  
Resolutions:
    National Indian Gaming Association...........................    62
    State of Colorado House Joint Resolution.....................    65
    Mescalero Apache Tribe.......................................    68
    Ute Mountain Ute Tribal Council..............................    69
    National Congress of American Indians........................    71



  


    SECURING EDUCATIONAL OPPORTUNITIES FOR NATIVE AMERICAN COLLEGE 
          STUDENTS: THE NATIVE AMERICAN EDUCATION ACT OF 2012

                              ----------                              


                       WEDNESDAY, AUGUST 22, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                  Denver, Colorado.
    The committee met, pursuant to notice, at 9:05 a.m., in the 
Old Supreme Court Chambers, Colorado State Capitol, Room 220, 
Hon. Michael Bennet, presiding.
    Present: Senator Bennet.

                  Opening Statement of Senator Bennet

    Senator Bennet. Thank you all for being here today. I want 
to make two observations at the outset. I have no gavel, other 
than my fist. So I'm going to try not to use that. And the 
other is that I've never sat 4 feet above anybody that I was 
talking to. So let's attempt to believe that we're all sitting 
at the same level, which we are, and we should be.
    With that, I'd like to call this field hearing of the 
Health, Education, Labor, and Pensions Committee to order.
    Thank you, Treasurer Juanita Plentyholes, for that kind 
welcome on behalf of the Ute Tribe.
    I want to especially thank those who have traveled a great 
distance to be here with us today and Chairman Harkin and 
Ranking Member Enzi of the HELP Committee for holding this 
hearing today. I look forward to working with them on both the 
bill we discuss today and the broader goal of advancing 
educational opportunities for Native American students.
    I also want to acknowledge Senator Ben Nighthorse Campbell, 
the former chair of the Indian Affairs Committee, who is here, 
and I'm going to call on him later in the proceedings to make a 
few remarks. Thank you for being here today, Senator Campbell.
    I'm going to be brief in my comments so we can hear from 
the real experts on this issue, what they have to say.
    We're here today to discuss a matter of great importance, 
the successful education of the Nation's Native American youth. 
We're going to examine how we fund educational institutions 
that operate under a mandate to provide free tuition for Native 
American students. These schools received land from the Federal 
Government in exchange for the tuition waiver obligation.
    The State of Minnesota through the University of Minnesota 
at Morris and the State of Colorado through Fort Lewis College 
can both be proud of what they've done through these tuition 
waiver programs. With the help of Colorado's tuition waiver 
program, in just the last 11 years, the Fort Lewis Native 
American Scholarship Fund has provided tuition waivers for 
16,408 students from 46 States representing 269 tribes. Fort 
Lewis awards more undergraduate degrees to Native American 
students than any other 4-year institution in the Nation.
    The University of Minnesota Morris has also played a 
critical role in higher education for Native American students 
with a program that has waived over $20 million of tuition 
since its inception in 1960. The enrollment of Native Americans 
at this school has doubled in the last 10 years, and in the 
fall of 2011, the school enrolled over 250 Native American 
students.
    Despite great advances in overcoming grave historical 
injustices, Native Americans still face unemployment and 
poverty rates well above the national average. Our Nation 
clearly needs to provide more opportunities for higher 
education for Native Americans since only 13 percent of Native 
American youth hold a baccalaureate degree compared to 30 
percent of all youth.
    Even in the recent recession, the unemployment rate among 
those with a college degree in this country never exceed 4.5 
percent. That's a pretty significant stress test, it seems to 
me, of the value we place on a college education. And that's 
why our work today is so important. We need to examine what we 
can do to ensure that these tuition waiver programs thrive into 
the future so that educational opportunities for Native 
American youth can continue to grow.
    The question before us today is not whether or not the 
tuition waiver program should continue. The waivers clearly 
should continue, and all of us engaged in this issue are deeply 
committed to that. The question we face is how we can equitably 
share the responsibilities for these programs. We need to have 
a thorough conversation as to who should bear cost of these 
programs in the future to best sustain them. I hope this 
hearing today will shed light on these questions and explore 
the overall importance of higher education for the Native 
American community.
    With that, I'm going to conclude my remarks and turn it 
over to the real experts who are here today. And I would like 
to introduce our first panel.
    I'd like to welcome William Mendoza, who serves as the 
Director of the White House Initiative on American Indian and 
Alaska Native Education. Originally from the Pine Ridge and 
Rosebud Sioux reservations in South Dakota, Mr. Mendoza, I am 
very proud to say, has degrees from both Fort Lewis College and 
Montana State University. He has worked as both a teacher and a 
principal, arguably the hardest jobs there are.
    I want to thank you for coming from Washington to be with 
us today, and I look forward to hearing your testimony.
    I would also like to introduce my friend, the Hon. Joseph 
Garcia, who serves as Lieutenant Governor of Colorado and the 
executive director of the Colorado Department of Higher 
Education. The Lieutenant Governor also serves as the chairman 
of the Colorado Commission of Indian Affairs, providing a 
direct link between Colorado and its Ute tribes, the Southern 
Ute Tribe and the Ute Mountain Ute Tribe.
    The Lieutenant Governor has previously served as chair of 
the Western Interstate Commission for Higher Education. He has 
also previously served as president of both Pikes Peak 
Community College and Colorado State University at Pueblo.
    Thank you both for being here today. I think we'll start 
with Mr. Mendoza.

STATEMENT OF WILLIAM MENDOZA, DIRECTOR, WHITE HOUSE INITIATIVE 
 ON AMERICAN INDIAN AND ALASKA NATIVE EDUCATION, WASHINGTON, DC

    Mr. Mendoza. Thank you, Senator Bennet. As you mentioned, 
my name is William Mendoza, and I am the director for the White 
House Initiative on American Indian and Alaska Native 
Education. I'd like to acknowledge your work on S. 3504, the 
Native American Education Act of 2012, and I appreciate the 
opportunity to testify today about the work that the 
Administration is doing to expand educational opportunities and 
improve outcomes for American Indian and Alaska Native 
students.
    At the White House Tribal Nations Conference on December 2, 
2011, President Obama, joined by cabinet secretaries and other 
senior administration officials, met with tribal leaders from 
federally recognized tribes for the third consecutive year to 
continue to strengthen our government-to-government 
relationships. In reaffirming the Federal Government's 
commitment to ensure that tribal nations are full partners with 
the Federal family, the President announced the signing of 
Executive Order 13592 entitled ``Improving American Indian and 
Alaska Native Educational Opportunities and Strengthening 
Tribal Colleges and Universities.''
    The mission and function of the White House Initiative is 
to expand educational opportunities and improve educational 
outcomes for all American Indian and Alaska Native students. 
This includes helping to ensure that American Indian students 
have opportunities to learn their native languages, cultures, 
histories, and receive a complete and competitive education 
that prepares them for college, career, and productive and 
satisfying lives.
    With respect to post-secondary education, the Initiative 
works to implement strategies to promote the expanded 
implementation of education reforms that have shown evidence of 
success in enabling American Indian students to acquire a 
rigorous and well-rounded education; increase access to support 
services that prepare them for college, careers, and civic 
involvement; reduce the student dropout rate and help more 
students who stay in high school prepare for college and 
careers; and increase college access and completion by 
strengthening the capacity of post-secondary institutions.
    We know we need to do better when it comes to meeting the 
academic and cultural needs of our American Indian and Alaska 
Native students across the Nation. American Indian and Alaska 
Native young adults lag behind their white peers in employment 
and educational attainment. According to the National Center 
for Education Statistics, in 2010, white young adults, ages 16 
to 24, had the lowest rate of unemployment, while American 
Indian and Alaska Native young adults had the highest.
    And according to the 2010 U.S. Census data, about 30 
percent of all youth and adults in the general population held 
baccalaureate degrees, compared with just 13 percent of the 
American Indian and Alaska Native youth and adults. These 
statistics and, of course, many others make clear that more 
must be done to expand opportunities and improve outcomes.
    In order to meet President Obama's goal for college 
attainment, there will need to be an additional 112,000 
American Indian and Alaska Native students completing college 
by the year 2020. Working together to support TCUs is also 
important in achieving this goal.
    Our Nation's 37 tribally controlled TCUs, which serve 
approximately 33,000 students and whose student body is at 
least 50 percent American Indian and Alaska Native students, 
fulfill a unique role in American Indian and Alaska Native 
communities by acting as safeguards and champions of tribal 
languages and cultures. TCUs are also public institutions, and 
they provide high-quality education and career-building 
opportunities to students of all ages, while also serving as a 
catalyst for economic development, particularly on 
reservations.
    It is also important to note that more than 90 percent of 
American Indian and Alaska Native post-secondary students 
attend institutions of higher education that are not tribally 
controlled. These include Native American-Serving Non-Tribally 
Controlled Institutions, where the student body is at least 10 
percent American Indian and Alaska Native students.
    In addition to providing a high-quality education and 
career-building opportunities for these students, these Native 
American-Serving Non-Tribally Controlled Institutions are 
working to improve and expand their capacity to serve American 
Indian and Alaska Natives by engaging in such activities as 
expanding dual enrollment opportunities, improving academic and 
student services to support student success and retention, and 
increasing the number of American Indian and Alaska Native 
students who pursue advanced degrees.
    The Federal Government, of course, plays an important role 
in improving the post-secondary education attainment of 
American Indian and Alaska Native students, not only because 
these students face barriers to achievement and persistence in 
post-secondary education, but also because the Federal 
Government has a trust responsibility to help these students 
succeed. Through the Race to the Top: College Affordability and 
Completion and the First in the World proposals, the 
Administration has offered a comprehensive approach to tackle 
the rising costs of college for all students, including 
American Indian and Alaska Native students.
    In addition, the Administration has worked with Congress to 
take a number of steps to address the challenge of helping to 
keep college affordable and accessible for all students. 
Foremost, we have invested more than $40 billion in Pell 
grants, extending aid to 3 million more college students for a 
total of over 9 million recipients, raising the maximum award 
to an estimated $5,635 for the upcoming 2013-14 academic year. 
This represents a $905 increase in the maximum award since 
2008.
    Yet the Federal commitment to post-secondary education of 
American Indian and Alaska Native students cannot be limited 
only to the work of the Administration. The Administration, 
Congress, post-secondary institutions, States, and tribes must 
all work together to keep building on our momentum to make an 
affordable college education accessible and available to all 
students who want one, and where appropriate, to continue 
support of historical obligations to fund that education for 
certain populations like American Indian and Alaska Native 
students.
    Thousands of American Indian and Alaska Native individuals 
and students around the country benefit from this continued 
demonstration of commitment and are appreciative of States that 
continue to uphold their obligations. These individuals are 
contributing not only to their tribes, but also directly to the 
strength and well-being of the States in which they reside and 
to the Nation as a whole.
    At a time when higher education is more important than ever 
for our shared future, States should not turn to higher 
education budgets as a source for cuts. Such cuts often lead to 
tuition spikes and higher dropout rates, particularly for 
vulnerable populations like American Indian and Alaska Native 
students. This Administration has made a strong commitment to 
upholding the United States' trust responsibility toward tribes 
and is committed to doing our part.
    Senator Bennet, thank you and the other members of the HELP 
Committee for holding this hearing. I look forward to working 
with you and this committee on this and other vitally important 
issues facing the Indian community. I would be happy to answer 
any questions.
    [The prepared statement of Mr. Mendoza follows:]
                 Prepared Statement of William Mendoza
    Good morning. My name is William Mendoza, and I am the director of 
the White House Initiative on American Indian and Alaska Native (AI/AN) 
Education at the U.S. Department of Education. I appreciate the 
opportunity to testify today about the work the Administration is doing 
to expand educational opportunities and improve outcomes for AI/AN 
students.
    I would also like to acknowledge Senator Bennet's work on S. 3504, 
The Native American Education Act of 2012, which is the subject of this 
hearing.
 increasing partnerships with states, tribes and the private sector to 
                      improve student achievement
    This Administration has taken great strides to support self-
determination and to strengthen and honor the Federal Government's 
government-to-government relationships with Tribal Nations. At the 
White House Tribal Nations Conference on December 2, 2011, President 
Obama, joined by Cabinet Secretaries and other senior Administration 
officials, met with tribal leaders from federally recognized Tribes for 
the third consecutive year to continue to enhance these relationships. 
In reaffirming the Federal Government's commitment to ensure that 
Tribal Nations are full partners with the Federal family, the President 
announced the signing of Executive Order No. 13592 entitled, 
``Improving American Indian and Alaska Native Educational Opportunities 
and Strengthening Tribal Colleges and Universities.'' As President 
Obama said, ``We have to prepare the next generation for the future.''
    The mission and function of the White House Initiative on American 
Indian and Alaska Native Education is to expand educational 
opportunities and improve educational outcomes for AI/AN students. This 
includes helping to ensure that AI/AN students have opportunities to 
learn their Native languages, cultures and histories, and receive a 
complete and competitive education that prepares them for college, a 
career, and productive and satisfying lives.
    Specifically, the Initiative works with Federal agencies, States, 
Tribes, and the private sector to advance these goals. With respect to 
post-secondary education, the Initiative works to implement strategies 
to promote the expanded implementation of education reforms that have 
shown evidence of success in enabling AI/AN students to acquire a 
rigorous and well-rounded education; increase access to the support 
services that prepare them for college, careers, and civic involvement; 
reduce the student dropout rate and help more students who stay in high 
school prepare for college and careers; increase college access and 
completion by strengthening the capacity of post-secondary 
institutions, including Tribal Colleges and Universities (TCUs); and 
help ensure that the unique cultural, educational, and language needs 
of AI/AN students are met.
          american indians/alaska natives and higher education
    We need to do better when it comes to meeting the academic and 
cultural needs of our American Indian and Alaska Native students across 
the Nation. AI/AN young adults lag behind their white peers in 
employment and educational attainment. According to the National Center 
for Education Statistics (NCES), in 2010, white young adults ages 16-24 
had the lowest rate of unemployment, while AI/AN young adults had the 
highest.
    According to 2010 U.S. Census data, about 30 percent of all youth 
and adults in the general population held baccalaureate degrees, 
compared with just 13 percent of the AI/AN youth and adults.\1\ And, 
while across all degree granting institutions, AI/AN undergraduate 
enrollment increased from 70,000 to 189,000 students from 1976 to 2009, 
these students still accounted for only 1 percent of the total 
undergraduate enrollment during those years. AI/AN students entering 
post-secondary education also lag behind all students in timely 
completion of both baccalaureate degrees and certificates or associates 
degrees at 2-year degree granting institutions.\2\ These statistics 
make clear that more must be done to expand opportunities and improve 
outcomes for AI/AN students.
---------------------------------------------------------------------------
    \1\ http://www.census.gov/prod/2012pubs/acsbr10-19.pdf.
    \2\ http://nces.ed.gov/programs/coe/indicator_pgr.asp#info.
---------------------------------------------------------------------------
    In order to meet President Obama's goal for college attainment, 
there will need to be an additional 112,000 AI/AN students completing 
college by the year 2020. Working together to support TCUs is important 
in achieving this goal.
    Our Nation's 37 tribally controlled TCUs, which serve approximately 
33,000 students, and whose student body is at least 50 percent AI/AN 
students, fulfill a unique role in AI/AN communities by acting as 
safeguards and champions of tribal languages and cultures. TCUs are 
also public institutions and they provide high-quality education and 
career-building opportunities to students of all ages, while also 
serving as a catalyst for economic development on reservations.
    It's also important to note that more than 90 percent of AI/AN 
post-secondary students attend institutions of higher education that 
are not tribally controlled. These include Native American Serving Non-
Tribally Controlled Institutions (NASNTCIs), where the student body is 
at least 10 percent AI/AN students, but where there are few 
opportunities for collaboration between Tribes and States.
    In addition to providing a high-quality education and career-
building opportunities for AI/AN students, NASNTCIs are working to 
improve and expand their capacity to serve AI/AN and low-income 
individuals by engaging in such activities as: expanding dual 
enrollment opportunities for AI/AN students; assisting institutions in 
the development of adult education that increases the number of AI/AN 
students who obtain high school diplomas; improving academic and 
student services to support student success and retention of AI/AN 
students; improving the effective use of technology in academic 
environments; and increasing the number of AI/AN students who pursue 
advanced degrees.
    Together, TCUs and NASNTCIs have a far-reaching impact in the 
communities they serve. For example, these institutions provide 
effective paths to academic achievement and degree completion for AI/AN 
students that can mitigate the risks of high poverty and unemployment 
that follow low educational attainment. Also, these institutions often 
serve as powerful engines of economic development in their communities, 
contributing employment, raising incomes, and directly and indirectly 
supporting other forms of economic development within Tribal 
communities. Because many of these communities tend to be located in 
rural and underserved communities compared to colleges and universities 
in the United States overall, this contribution is especially vital.
                   the role of the federal government
    The Federal Government plays an important role in improving the 
post-secondary education attainment of AI/AN students, not only because 
these students face barriers to achievement and persistence in post-
secondary education, but also because the Federal Government has a 
trust responsibility to help these students succeed.
    Through the Race to the Top: College Affordability and Completion 
(RTTCAC) and First in the World (FITW) proposals, the Administration 
has offered a comprehensive approach to tackle the rising costs of 
college for all students, including AI/AN students. The Federal 
Government, States, and Institutions of Higher Education have a shared 
responsibility in this endeavor and must work together to address the 
college affordability and completion challenge.
    In addition, the Administration has worked with Congress to take a 
number of steps over the last 3 years to address the challenge of 
helping to keep college affordable and accessible for all students, 
including AI/AN students:

    <bullet> We have invested more than $40 billion in Pell grants, 
extending aid to 3 million more college students for a total of over 9 
million recipients and raised the maximum award to an estimated $5,635 
for the 2013-14 academic year. This represents a $905 increase in the 
maximum award since 2008.
    <bullet> We are working to make college loans more affordable 
through the ``Pay as You Earn'' proposal, which will enable an 
additional 1.6 million students to take advantage of a new option to 
cap student loan payments at 10 percent of a borrower's monthly income 
starting as early as this year.
    <bullet> We have created the American Opportunity Tax Credit, which 
provides up to $10,000 for up to 4 years of education and includes 
benefits for low-income individuals with no tax liability. Eleven 
million middle class and low-income families claimed the credit in tax 
year 2010.

    This historic investment in student aid has kept the price that 
families actually pay for college--the net price--essentially flat over 
the last few years. Thanks to our Federal investments, the College 
Board reports that the net price of tuition and fees at 4-year public 
institutions has increased by just $170 since the 2006-7 academic year, 
while the net price of tuition and fees at community colleges has 
actually decreased over the same period.
    Yet this Federal Government commitment to post-secondary education 
of AI/AN students cannot be limited only to the work of the 
Administration. We need a strong partnership with Congress if we are 
going to improve college participation and outcomes. So thank you 
Senator Bennet and the other members of the HELP Committee for holding 
this hearing.
    Of course, the Federal Government cannot singlehandedly ensure 
college affordability. The Administration, Congress, post-secondary 
institutions, and, States must all work together to keep building on 
our momentum in recent years to make an affordable college education 
accessible and available to all students who want one, and where 
appropriate, to continue support of historical obligations to fund that 
education for certain populations like AI/AN students.
    Thousands of AI/AN individuals and students around the country 
benefit from this continued demonstration of commitment and are 
appreciative of States that continue to uphold their obligations. These 
individuals are contributing not only to their Tribes, but also 
directly to the strength and well-being of the States in which they 
reside and to the Nation as a whole. At a time when higher education is 
more important than ever for our shared future, States should not turn 
to higher education budgets as a source for cuts. Such cuts often lead 
to tuition spikes and higher drop-out rates, particularly for 
vulnerable populations like AI/AN students. This Administration has 
made a strong commitment to upholding the United States' trust 
responsibility toward Tribes and is committed to doing our part.
                               conclusion
    I look forward to working with you and this committee on this and 
other vitally important issues facing the AI/AN community. Thank you 
for your time and I would be happy to respond to any questions you may 
have.

    Senator Bennet. Thank you, Mr. Mendoza. I'm going to turn 
to the Lieutenant Governor, and then I'll have questions for 
both of you. Thank you so much for being here.

STATEMENT OF HON. JOSEPH A. GARCIA, LIEUTENANT GOVERNOR, STATE 
                    OF COLORADO, DENVER, CO

    Mr. Garcia. Good morning, Senator, and thank you for the 
invitation to attend today's hearing and to speak in support of 
the Native American Education Act of 2012. I really want to 
thank you and your staff for recognizing the important 
responsibility that both our Federal and State leaders have in 
continuing to secure access for American Indians and Alaska 
Natives to high-quality educational opportunities at 
institutions of higher education.
    I want to say that I agree with Mr. Mendoza's earlier 
comments that all of us at the Federal and State levels must do 
a better job of meeting the academic and cultural needs of our 
American Indian and Alaska Native students. We must continue to 
work together to make a college education affordable and 
accessible to all students, particularly those from underserved 
and low-income communities.
    Now, the State of Colorado and Fort Lewis College have 
continued to meet for many decades now and to exceed the 
provisions of a unique historical agreement that enables a 
growing population of American Indian and Alaska Native 
students to obtain a post-
secondary credential. We celebrate the success of the Fort 
Lewis Native American Scholarship Program and Fort Lewis 
College, which provides an exemplary education program as one 
of only a handful of Native American-Serving Non-Tribal 
colleges in the United States.
    Now, as you can see from the letters of support submitted 
by Governor Hickenlooper and by Hereford Percy, the Chairman of 
the Colorado Commission of Higher Education, the State of 
Colorado is deeply committed to fulfilling the intent and 
spirit of this agreement. And along with you, we want to move 
forward in the best interest of the citizens of the State and 
the American Indian and Alaska Native students the program is 
meant to serve.
    It is important to briefly note the historical context 
under which the Fort Lewis Native American Scholarship was 
made. As you can see in greater detail from my letter, 
supported along with the testimony, the Fort Lewis Native 
American Scholarship Program has roots that go back to 1878, 
when Fort Lewis, an Army outpost, was first established. And in 
1891, Fort Lewis became a Federal Indian primary and secondary 
school for American Indian students in the nearby region.
    In 1911, however, the Federal Government transferred that 
land to Colorado, and Colorado, as part of that transfer 
agreement, agreed to maintain the school--again, at the time, a 
primary and secondary school--as a place of learning that 
Indians could attend free of charge. Now, by 1927, the school 
evolved from a primary and secondary school into a junior 
college, and by the mid-1960s, the school offered 4-year 
degrees. Today, Fort Lewis serves as a public liberal arts 
college with selective admission standards with a historic and 
continuing commitment to American Indian education.
    Now, I want to emphasize that no one in Colorado wants to 
see access for American students limited in any way. This 
proposed legislation is focused on securing, not limiting, 
tuition-free access to Fort Lewis College for American Indian 
and Alaska Native students. American Indian students are 
entitled to this education, which is not only of individual 
benefit to them, but also, as Mr. Mendoza's testimony pointed 
out, a benefit to the State and to the country as a whole.
    Truly national in scope, the Fort Lewis Native American 
Scholarship Program provided tuition waivers, as you noted, for 
over 16,000 students from 46 States and 269 tribes just over 
the past 11 years alone, and far more as we look back over the 
many decades of its history. But it's also important to note 
that more than 84 percent of those Native American students who 
received tuition waivers were not from Colorado. This is not a 
State program, but a Federal one, a national program with 
national benefits and national implications.
    Now, based on the requirements in State law pursuant to the 
agreement, Colorado has been funding these obligations, which 
are growing at an ever-increasing rate, during a period when 
State resources for public higher education have been 
diminishing. Just since 2008-9, that fiscal year alone, public 
higher education operating funding in Colorado has decreased by 
over 27 percent while at the same time we've seen enrollment 
growth of over 14 percent, with the net result being a 36 
percent decrease in State funding per resident student.
    Now, the Fort Lewis College Native American Tuition Waiver 
has also grown steadily over time, and the annual increases are 
becoming greater and greater on a year-to-year basis. The 
tremendous growth in the program is both good news, but it also 
creates challenges for the State. The good news is that Fort 
Lewis has demonstrated success in serving American Indian 
students from all regions of the country.
    Of the American Indian student population attending Fort 
Lewis College, as I said earlier, about 84 percent were from 
outside of Colorado. But because of the differences in tuition 
and non-resident tuition, they represent over 95 percent of the 
dollars spent to support the program. That's $12.8 million in 
total scholarship fund allotment that goes to non-Colorado 
residents.
    Now, the State of Colorado would like your partnership in 
continuing to deliver higher education opportunities to 
American Indian youth. And it's critically important to 
understand where the approximately $13 million that supports 
the program now comes from. It's not part of a separate pot of 
money that's allocated specifically to the Native American 
Scholarship Fund. Rather, it is part of the entire State 
financial aid program. Out of that pot, the Native American 
Scholarship Fund comes off the top.
    So an escalating cost of that program has been covered by 
reducing funding to the State's other financial aid programs, 
including need-based grants and work-study programs. So using 
State financial aid funds to cover rising costs for the Fort 
Lewis Native American tuition waiver program has a demonstrable 
impact on American Indian students throughout Colorado.
    Now, while over 800 American Indian and Alaska Native 
students attend Fort Lewis College, there are actually about 
3,000 Native American students attending public institutions in 
Colorado. So about 30 percent of the total attend Fort Lewis 
College. The other 70 percent receive no benefit from this 
program. In fact, they're impacted by the program because of 
the reduction in the amount of financial aid available to 
support them.
    Now, the special and distinct circumstances that confront 
us today have been created by the evolution of a 100-year-old 
mission. That mission charged Colorado to provide students 
admitted to the Indian reservation school or high school with 
an education free of charge of tuition and on equal terms with 
white students.
    It's important, again, to note that we do not want to limit 
access to Native American students at Fort Lewis or at any 
other institution of higher education in Colorado or 
nationally. And, in fact, while we're asking for Federal 
support to fund that mission, while serving thousands of other 
students, including Native American students at other State 
higher education institutions, we're steadfast in our 
commitment to securing educational opportunities for Native 
American students in our great State.
    So I'm here to commend the great work of Fort Lewis 
College's administration, the leadership shown by its governing 
board and by its president, Dene Thomas, along with the staff 
and students at Fort Lewis College in making this historical 
agreement an educational priority. With the passage of the 
Native American Education Act of 2012, Colorado will be able to 
continue its commitment to the successful national program 
while also providing higher education opportunities for all 
students across Colorado.
    Again, I want to thank you for allowing me the honor of 
speaking to you today. I appreciate your support of this 
legislation, and I would be glad to answer any questions you 
may have.
    [The prepared statement of Mr. Garcia follows:]

                                 State of Colorado,
                 Office of the Lieutenant Governor,
                                          Denver, CO 80203,
                                                   August 17, 2012.
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Congressional Field Hearing,
Old Supreme Court Chambers,
Colorado State Capitol,
Denver, CO 80203.

                                summary
    Dear Senator Bennet and Committee Members: Here is a brief overview 
of my testimony in support of The Native American Education Act of 
2012, S. 3504:

    <bullet> Welcome.
    <bullet> Support statement for the Native American Education Act of 
2012, S. 3504.
    <bullet> Introduction of Letters of Support.
    <bullet> Fort Lewis Native American Scholarship Fund background and 
historic agreement with the State of Colorado.
    <bullet> Fort Lewis Native American Scholarship Fund funding and 
enrollment data.
    <bullet> The great work of Fort Lewis College and continued support 
of securing secure access for American Indians /Alaska Natives to high 
quality educational opportunities at institutions of higher education.
    <bullet> Closing and questions.

            Sincerely,
                                          Joseph A. Garcia,
                                               Lieutenant Governor.
                                 ______
                                 
              Prepared Statement of Hon. Joseph A. Garcia
    Dear Senator Bennet and committee members, good morning and thank 
you for the invitation to attend today's hearing and speak in support 
of the proposed the Native American Education Act of 2012, S. 3504. I 
would especially like to thank Senator Bennet and staff for recognizing 
the important responsibility that both our Federal and State leaders 
have in continuing to secure access for American Indians /Alaska 
Natives to high quality educational opportunities at institutions of 
higher education.
    Attached to my testimony this morning, you will find support 
letters from Governor John Hickenlooper and the Colorado Commission of 
Higher Education Chairman Hereford Percy, representing the Colorado 
Department of Higher Education. As Lieutenant Governor, I also serve as 
Chairman of the Colorado Commission of Indian Affairs and last year the 
Commission submitted a letter of support for then S. 484 which is also 
included in your packet today.

    [The letters referenced above may be found in additional material.]

    The State of Colorado and Fort Lewis College have continued to meet 
and exceed the provisions of a unique historical agreement that enables 
a growing population of American Indian/Alaska Native students to 
attain a post-secondary credential. We celebrate both the success of 
the Fort Lewis Native American Scholarship Fund and this college, which 
provides an exemplary education program as one of only a handful of 
Native American-Serving Non-Tribal Colleges in the United States. 
Governor Hickenlooper and I are deeply committed to fulfilling the 
intent and spirit of this agreement, and along with you, want to move 
forward in the best interests of the citizens, the State, and the 
American Indians/Alaska Native students the program is meant to serve.
    It is important to understand the historical context under which 
this agreement was reached. The original Fort Lewis was established as 
a U.S. Army post in 1878 in Pagosa Springs, CO. In 1882, the Fort Lewis 
Military Reservation was set aside by the Federal Government for an 
Indian Reservation School and moved to Hesperus, CO just west of 
Durango, CO.
    Over a decade following its original creation as a military 
outpost, in 1891 Fort Lewis became a Federal Indian primary and 
secondary school where American Indian students from the surrounding 
regions attended. By 1911, the Federal Government offered the Fort 
Lewis land to the State of Colorado. The transfer stipulated that:

        (1) ``. . . said lands and building shall be held and 
        maintained by the State of Colorado as an institution of 
        learning''; and

        (2) ``. . . that Indian pupils shall at all times be admitted 
        to such school free of charge of tuition and on equal terms''.

    At the time of the transfer in 1911, the School of Agricultural and 
Mechanical Arts and Household Arts was created as a high school ending 
in the 12th grade. By 1927, the school evolved into a junior college 
and by the early to mid-1960s the school offered 4-year degrees and 
officially retained its current moniker of Fort Lewis College.
    Today, Fort Lewis College serves as a public liberal arts college 
with selective admission standards with a historic and continuing 
commitment to American Indian education. Truly national in scope, the 
Fort Lewis Native American Scholarship Fund provided tuition waivers 
for 16,408 students from 46 States and 269 tribes over the past 11 
years. More than 84 percent of these American Indian/Alaska Native 
students who received tuition waivers were not from Colorado.
    Colorado statute requires:

        ``that all qualified Indian pupils shall at all times be 
        admitted to such college free of charge for tuition and on 
        terms of equity with other pupils. The general assembly shall 
        appropriate from the State general fund one hundred percent of 
        the moneys required for tuition for such qualified Indian 
        pupils.''--Section 23-52-10 (1)(b)(I), C.R.S. (2012)

    Based on the requirements in State law pursuant to the agreement 
associated with the original transfer of the Fort Lewis lands, Colorado 
has been funding these obligations which are growing at an ever-
increasing rate during a period when State resources for public higher 
education have been diminishing. Since the State fiscal year 2008-9, 
public higher education operating funding in Colorado has decreased by 
over 27 percent. Over this same timeframe the State has experienced 
resident enrollment growth of over 14 percent systemwide. The net 
result is over a 36 percent decrease in State funding per resident 
student.
    The Fort Lewis College Native American Tuition Waiver has grown 
steadily over time and the annual increases are becoming greater and 
greater on a year-to-year basis. Figure 1 illustrates the cost to the 
State since fiscal year 2008-9.
                                figure 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The tremendous growth in the program is in part due to Fort Lewis 
College's success in serving American Indian students from all regions 
of the country. The most recent projections suggest an increase of over 
$2 million going into fiscal year 2013-14, which is primarily a result 
of double-digit enrollment increases in the Native American student 
population. Of the American Indian student population attending Fort 
Lewis College, approximately 95 percent of the $12.8 million 
scholarship fund total allotment is paid on behalf of non-Colorado 
residents.
    The State of Colorado asks for your partnership in continuing to 
deliver higher education opportunities to American Indian youth. Given 
the State's budgetary challenges, this cost has been covered by 
reducing funding to the State's other financial aid programs (Need-
Based Grants and/or Work Study). Using State financial aid funds to 
cover changes in costs for the Fort Lewis Native American Tuition 
Waiver program has a demonstrable impact on American Indian students 
throughout Colorado. Approximately 3,000 American Indian/Alaska Native 
students attend public institution in Colorado. Consequently, 
reductions in the State's need-based financial aid program reduce 
access to State financial assistance for low-income students at every 
institution in the State, including American Indian/Alaska Native 
students enrolled at institutions other than Fort Lewis College. In 
spite of this, Colorado stands by its commitment to the Fort Lewis 
Native American Tuition Waiver program and plans to continue funding 
tuition for all qualifying students beyond the Federal contribution.
    The special and distinct circumstance that confronts us today has 
been created by the evolution of a 100-year-old mission. That mission 
charged Colorado to provide students admitted to the Indian Reservation 
School--a high school--with an education free of charge of tuition and 
on equal terms. While we are challenged to fund that mission while 
serving thousands of other students (including Native American 
students) at other State higher education institutions, we are no less 
steadfast in our commitment to securing educational opportunities for 
Native American students in our great State.
    I am here to offer our full support for The Native American 
Education Act of 2012 and to commend the great work of Fort Lewis 
College's administration, staff, and students by making this historical 
agreement an educational priority. With the passage of this 
legislation, Colorado can continue our commitment to this successful 
national education program while also providing higher education 
opportunities for all students across Colorado.
    Again, thank you for allowing me this honor of speaking before you 
today. I would be glad to answer any questions you may have.

    Senator Bennet. Thank you for your testimony. Thank you 
very much for being here.
    I can't resist, Mr. Mendoza, since you're here and since 
you are a graduate of Fort Lewis--but I wanted to have the 
chance for you to put in the record what that education has 
meant to you, personally, and how it prepared you to now be 
working in the White House at the level that you're working. I 
think it's important for the students that are there to hear 
that.
    Mr. Mendoza. I appreciate the opportunity, Senator Bennet, 
and I couldn't agree more with the sentiments that are 
expressed in your comments and Lieutenant Governor Garcia's 
just about the brevity of what Fort Lewis does for this country 
in terms of American Indian and Alaska Native students, in 
particular. My personal journey to a respect and understanding 
of how education can be successful for me was one that was a 
bumpy road and involved numerous institutions of higher 
education, numerous supports from every step of the way, and 
then, certainly, challenges as well.
    Fort Lewis, for me--quite frankly, I wouldn't be in the 
position that I am to be able to impact the needs of not only 
my family, but those who I also hold near and dear, my people, 
and, of course, the States and the country to which I hold 
allegiance to and value very much. My experiences there at Fort 
Lewis College, I think upon often. Particularly, because of 
this context, I really think that it is the best representative 
effort in the country of these types of schools, whether we are 
talking about Minnesota Morris, Fort Lewis College, or our 
Native American-Serving Non-Tribally Controlled institutions, 
where we really see States vesting an interest.
    And, whether it's the sacred trust, as it is referred to at 
Fort Lewis College, or a contractual obligation, or the trust 
responsibility, as we see it through the Federal lands, where--
and I think I can only express it in that old saying that you 
always hear, where you tell me where you put your money, and 
I'll tell you what you prioritize. What drew me to Fort Lewis 
was that I would be in an environment where I could engage with 
students that I knew, instantaneously, either didn't agree with 
me or didn't know anything about me and the communities that I 
came from.
    It was especially humbling when I got there to know that 
the State of Colorado invested in that, that the institution 
itself fought for my presence there. How I was interacting with 
that system gave me, all the much more, empowerment to say 
there are bigger answers to some of these tough issues, whether 
we're facing them on reservations or off reservations.
    So it couldn't be more important than that to me. And being 
here today, in a way that I can share what we hope for in 
protecting opportunities for American Indian and Alaska Native 
students and how we need to all be working together to be 
thinking innovatively to address these times of austerity--I'm 
committed to do that. I have a value in that, knowing what 
these degrees and what these efforts mean to communities like 
my home village of Pine Ridge and Rosebud. Those are the 
communities that I grew up in.
    And we need choices. We need appropriate institutions where 
we can have a diverse array of offerings for us to have access 
to. And Fort Lewis represented that for me as a student.
    Senator Bennet. That gives me an opportunity to actually 
ask the first question that I had for you. Since you've already 
answered it, I'll ask you as a representative of the White 
House to commit to work with us to ensure that these waiver 
programs are sustainable with an equitable funding stream 
between both the Federal and State governments.
    Mr. Mendoza. We certainly support the principles of this 
bill, Senator, and we want to do everything in our power to 
make sure that we're all putting our hands together to ensure 
that.
    Senator Bennet. Thank you. The last question that I had for 
you--you talked about this in the context of the trust 
responsibility that we have, which I think is enormously 
important. That's really what brings us here today, to find a 
way to make sure that we can sustain this commitment that's 
been made.
    And I wonder, in that context of the trust responsibility, 
if you could talk about just how important the tuition waiver 
program has been to increasing educational opportunities for 
Native American students in this country.
    Mr. Mendoza. I appreciate it, Senator. And I think our next 
speaker, President Thomas, certainly can speak to the 
contributions directly and the statistics that places them, if 
my memory serves me correctly, fourth in the Nation in terms of 
enrollment and certainly one of our highest degree producers 
for American Indian and Alaska Native students. There is not 
enough of this universe of institutions that we refer to as 
Native American-Serving from the Department of Education 
standpoint.
    So in every area where those have the potential of being 
supported, we want to be working with them to say: What are 
your challenges? What are your successes? And how can we bring 
more resources, whether it's through the tribal context, the 
State context, or the Federal context, to help address the 
unanimously agreed challenges facing our higher education 
institutions?
    Senator Bennet. I said that was my last question. But 
here's one more, and then I will stop. You talked a little bit 
in your opening remarks about the challenges that are facing 
our Native American youth in K-12 education as well. And as a 
former school superintendent, I know very well the challenges 
of getting children, particularly those living in poverty, 
prepared to go to college and then to persist once they're in 
college.
    I wonder if you could say a word about what the 
Administration's initiatives are around K-12 education for 
Native American youth and what we can be doing better to 
support those efforts.
    Mr. Mendoza. I appreciate it, Senator. And, certainly, we 
are working to create pathways. We are transitioning Indian 
education from working from silo approaches to whether or not 
we are looking at that from the tribal college lens or the 
Native American-Serving Non-Tribal college lens or the Bureau 
of Indian Education system and their unique institutions.
    We are trying to connect the dots with that, utilizing a 
lot of the levers that are in place with the Administration, a 
lot of the bridge programs expressed through TRiO and Gear Up 
and our Aid for Institutional Development programs. We have a 
first in the world program that we want to put forth to support 
our minority-serving institutions--$20 million of that $55 
million program will go toward these institutions really 
thinking innovatively about how they can buildupon and scope 
and scale best practices, promising practices, if you will, to 
be able to address the unique needs of these students, in 
particular, American Indian and Alaska Native students.
    Senator Bennet. Thank you.
    Mr. Lieutenant Governor, can you talk a little bit broadly 
about what the state of the higher education budget is in 
Colorado and what you're doing to try to manage in a very 
challenging environment?
    Mr. Garcia. Yes, Senator. As I said before, we know that 
the general fund money available for higher education has been 
diminishing over the last several years. And it's come at a 
very bad time, a time when we are encouraging more and more 
young people to go on to post-secondary education. The good 
news is that they are, but, again, the bad news is there are 
fewer dollars to support them.
    We've been working with institutions to emphasize the 
importance of creating efficiencies. The institutions have done 
a remarkable job of doing exactly that. Colorado has the most 
efficient system of public higher education in the country when 
you look at the number of degrees produced per dollar invested. 
Our institutions are stretched thin and are doing a very good 
job.
    We also try to emphasize the importance of completion, not 
just enrollment. We know that with certain populations, like 
the native population, that's a bigger challenge. They often 
arrive academically underprepared and under-resourced 
financially, and so it takes more effort and more investment by 
the institutions to serve those students who we most need to 
serve. After all, minority and low-income students are the 
fastest growing demographic in our both K-12 and higher 
education systems.
    We've seen a reduction--over $706 million of general fund 
money invested in higher education only 4 or 5 years ago. 
That's down to a little more than $500 million now. So, again, 
we try to look for alternative ways to deliver instruction. 
We're trying to look for increased efficiencies. But we don't 
want to impact quality, and we don't want to impact output. We 
don't want to impact our ability to actually help these 
students graduate. That's our challenge right now.
    And as we look at a reduction in the amount of financial 
aid available, which is where the Native American Scholarship 
dollars come from, because we're trying to serve more students, 
more needy students, with fewer dollars, we need the 
partnership with the Federal Government to help us ensure that 
we can provide access for all students.
    Senator Bennet. And could you say a little bit about why 
you think it's appropriate, in the context of the facts that 
you talked about in your opening statement, that the Federal 
Government should provide funding for this program?
    Mr. Garcia. Absolutely, Senator. When the program was first 
established, as I said, it was focused on a primary and 
secondary school that served Native American students from this 
region. Of course, now it is a 4-year, high-quality academic 
institution offering baccalaureate degrees. Over 80 percent of 
the students it is serving come from outside of Colorado, and 
over 95 percent of the cost goes to fund those out-of-state 
students.
    Those out-of-state students come and get a great education, 
and they return to their communities, including tribal lands, 
where they make an impact, an enormous impact, in their 
communities. That benefits those communities. That benefits the 
country. And we think for that reason the Federal Government 
ought to help us maintain this program, that we ought to be 
able to cover the increasing cost with the help of the Federal 
Government, because the work of Fort Lewis College, the work of 
the Fort Lewis Native American Scholarship program doesn't just 
impact Colorado. It has a tremendous impact on the rest of the 
country.
    Senator Bennet. And is it your understanding--it is my 
understanding, anyway, that this legislation says that if the 
Congress were to pass this legislation, were to fund this 
program, and in the future change its mind and decide not to do 
it, that the State's responsibility to fulfill the agreement 
that was made remains intact.
    Mr. Garcia. That's absolutely correct, Senator. The State's 
obligation would continue. If we were able to get some 
additional funding through this legislation, it would simply 
help relieve the burden. But the State is committed to this 
program. The State, in my view, has a legal obligation to 
continue this program. We're simply asking for some financial 
assistance.
    Senator Bennet. Thank you. I appreciate your testimony very 
much. I'm sure everybody that's here today does. Now we'll move 
on to the second panel. Thank you for being here. We'll take a 
minute to shift.
    I wish I could say that every committee hearing in 
Washington, DC moves as expeditiously as this one, but I can't. 
So I'd like to thank the second panel for joining us here 
today, and we'll try to keep opening remarks to about 5 
minutes. I'm going to introduce each of you, and then we'll get 
going.
    Dr. Dene Kay Thomas is the current president of Fort Lewis 
College. Dr. Thomas taught writing at the University of Idaho 
and was the president of Lewis-Clark State College. In 2010, 
she was selected to be the first woman to ever serve as 
president of Fort Lewis College.
    We're delighted to have you today.
    Dr. Jacqueline Johnson is the Chancellor of the University 
of Minnesota Morris. She is also the first woman to serve in 
this role. Dr. Johnson was appointed Chancellor in 2006 after 
serving in various positions in a number of universities. Those 
include serving as chief academic officer at St. Martin's 
College and vice president for Academic Affairs and dean of 
faculty at Buena Vista University.
    Thank you so much for making the trip here today.
    John Echohawk is the executive director of the Native 
American Rights Fund. John Echohawk is a member of the Pawnee 
Nation of Oklahoma and has served as the executive director of 
the Native American Rights Fund for over 30 years. Mr. Echohawk 
began his law career when he was the first graduate of the 
University of New Mexico's program to train Indian lawyers. He 
has since been recognized as one of the 100 most influential 
lawyers in America by the National Law Journal.
    I want to welcome you back to Colorado. We're delighted 
that you're here.
    Byron Tsabetsaye is the president of the Associated 
Students of Fort Lewis College. He is a member of both the 
Navajo and the Zuni Pueblo tribes. He is also a member of both 
the Native American Honor Society and the National Society of 
Leadership and Success.
    Thank you all for being here.
    Dr. Thomas, would you like to kick it off? Then we'll go 
down the line here and then have some questions.

  STATEMENT OF DENE KAY THOMAS, Ph.D., PRESIDENT, FORT LEWIS 
                      COLLEGE, DURANGO, CO

    Ms. Thomas. I would, indeed. Good morning, Mr. Chairman.
    I will take us back to 1911, January 25th, when Governor 
John Shafroth signed a contract with the Federal Government 
which transferred 6,279 acres in southwest Colorado to the 
State of Colorado to be maintained as an institution of 
learning to which Indian students will be admitted free of 
tuition and on an equality with white students in perpetuity. 
That free tuition has benefited numerous Native American 
students from 46 States and 269 federally recognized Indian 
tribes and has, in turn, benefited the State of Colorado and 
the entire Nation through its investment in human capital.
    No one could have foreseen the national impact such an 
agreement would have on all concerned. New Mexico and Arizona 
were territories that had not entered statehood. Modern 
transportation made this once isolated military fort easily 
accessible and centrally located in the heart of Indian 
country.
    We now have a situation where what is of benefit to many is 
of cost to only one. Colorado benefits, but even more, the 
country benefits as societal benefits accrue from becoming more 
educated, productive, taxpaying citizens. Given the national 
benefits and the 100 years of support only from Colorado, it is 
time for the Nation to support what has become an unintended 
unfunded Federal mandate. We now have an issue of fairness. It 
is only fair for the Federal Government to support Senate bill 
3504 and Senate bill 484.
    This sense of fairness is shared by many national Native 
American organizations, the National Congress of the American 
Indian, NIGA, NARF, and every tribe that we have visited with 
about it--Navajo, Mescalero Apache, Cherokee, the Tri-Utes. I 
would note that S. 3504 does not either now or in the future 
restrict or cap the number of Native American students, either 
Colorado residents or non-Colorado residents, who can attend 
Fort Lewis College and receive the waiver. All Native American 
students from federally recognized tribes would continue to 
attend tuition free.
    Fort Lewis College owns its dual mission of Colorado's only 
public liberal arts college and its historic Native American 
education mission with pride. We are now a college of 23 
percent Native American students from 138 tribes and 45 States. 
Our 860 Native American students benefit, and the rich cultural 
diversity benefits everyone at Fort Lewis College and in the 
Durango community.
    We rank fourth in the Nation in the percent of full-time 
Native American undergraduates enrolled in a baccalaureate 
institution. Almost half of Fort Lewis College Native students 
are from the Navajo nation, the second largest tribe in the 
United States, located 84 miles from campus, and 11 percent are 
from Native Alaskan tribes.
    Fort Lewis College awards more bachelor's degrees to Native 
American and Alaska Native students than any other 
baccalaureate institution in the Nation. From 2006 to 2010, 
Fort Lewis College awarded over 10 percent of the total number 
of baccalaureate degrees earned by Native American students in 
the United States.
    The college's tuition waiver provides access and 
opportunity to the most underserved minority population, as 
less than 1 percent--actually, it's 0.7 percent--of American 
Indians attain a baccalaureate degree annually. That's compared 
with all other minorities--African-American, 8.9 percent; 
Hispanic, 7.5 percent; Asian American, 6.6 percent.
    The educational attainment rate for Native American 
students is widening as bachelor's degrees conferred by other 
ethnicities has increased while the bachelor's degrees for 
Native Americans has remained flat at 0.7 percent. The Federal 
Government has provided much more assistance for far greater a 
time period to Hispanic-serving institutions and historically 
Black institutions.
    Aside from tribal colleges, there is only a $5 million 
Federal allocation annually that was created in fiscal year 
2008-9 to support Native American students outside of tribal 
colleges through the Native American-Serving Non-Tribal College 
discretionary funds at the U.S. Department of Education. We are 
one of a small number of the Native American-Serving Non-Tribal 
Colleges who focus on bachelor degree attainment for Native 
American students. And we are one of only two with historic 
mandates that date back to the days after the Indian wars.
    We believe in our mission to educate Native American 
students, and we do it well. We have a number of partnerships 
with other groups, both community colleges for seamless 
transfer, with the Navajo nation, and a number of the other 
connections that we make to continue from the 2-year to a 4-
year education.
    We have a scope of a program that has far exceeded the 
expectations set forth in the 1910 agreement between the State 
of Colorado and the Federal Government, and it would be a 
travesty to be unable to provide a broader base of support for 
what is a successful State and national program.
    I thank you, Mr. Chairman, for the opportunity to appear 
before you today, and I stand ready to answer any questions you 
may have.
    [The prepared statement of Ms. Thomas follows:]
              Prepared Statement of Dene Kay Thomas, Ph.D.
                                summary
    On January 25, 1911, Governor John Shafroth signed a contract with 
the Federal Government which transferred 6,279 acres in southwest 
Colorado to the State of Colorado ``to be maintained as an institution 
of learning to which Indian students will be admitted free of tuition 
and on an equality with white students'' in perpetuity (Act of 61st 
Congress, 1911). That free tuition has benefited Native American 
students from 46 States and 269 federally recognized Indian tribes.
    No one could have foreseen the national impact such an agreement 
would have on all concerned. Modern transportation made this once 
isolated military fort easily accessible and centrally located in the 
heart of Indian Country. We now have a situation where what is of 
benefit to many is of a cost to only one. Given the national benefits 
and the hundred years of support from only Colorado, it is time for the 
Nation to support what has become an unintended unfunded Federal 
mandate. We now have an issue of fairness.
    Fort Lewis College ranks 4th in the Nation in the percent of full-
time Native American undergraduates enrolled in a baccalaureate 
institution.\1\ Almost half of FLC Native students are from the Navajo 
Nation (second largest tribe in the United States), located 84 miles 
from campus, and 11 percent are from Native Alaskan tribes. FLC awards 
more degrees to Native American/Alaskan Native students than any other 
baccalaureate institution in the Nation. From 2006-10, Fort Lewis 
College awarded over 10 percent (556) of the total number of 
baccalaureate degrees earned by Native American students in the United 
States. In 2010, FLC was 1st in the Nation in STEM (science, 
technology, engineering and math) baccalaureate degrees earned by 
Native Americans.
---------------------------------------------------------------------------
    \1\ American Indian Science & Engineering Society, 2012.
---------------------------------------------------------------------------
    The College's tuition waiver provides access and opportunity to the 
most underserved minority population in higher education, as less than 
1 percent (0.7 percent) of American Indians attain a baccalaureate 
degree annually.\2\ We believe in our mission to educate Native 
American students and we do it well. Together, by supporting S. 3504, 
we have an opportunity to provide a quality educational experience for 
Native American students, so that they too can compete in the global 
market place and carry the hopes and dreams of their nation, and ours, 
into prosperity.
---------------------------------------------------------------------------
    \2\ Kim, Young, ``Minorities in Higher Education,'' Twenty-Fourth 
Status Report, 2011 Supplement, American Council on Education, October 
2011.
---------------------------------------------------------------------------
                                 ______
                                 
    Good Morning, Mr. Chairman and members of the committee, my name is 
Dr. Dene Thomas, president of Fort Lewis College. On January 25, 1911, 
Governor John Shafroth signed a contract with the Federal Government 
which transferred 6,279 acres in southwest Colorado to the State of 
Colorado ``to be maintained as an institution of learning to which 
Indian students will be admitted free of tuition and on an equality 
with white students'' in perpetuity (Act of 61st Congress, 1911). That 
free tuition has benefited numerous Native American students from 46 
States and 269 federally recognized Indian tribes, and has in turn, 
benefited the State of Colorado and the Nation through an investment in 
human capital.
    No one could have foreseen the national impact such an agreement 
would have on all concerned. New Mexico and Arizona were territories 
that had not entered statehood. Modern transportation made this once 
isolated military fort easily accessible and centrally located in the 
heart of Indian Country. We now have a situation where what is of 
benefit to many is of a cost to only one. Colorado benefits, but even 
more, the country benefits, as societal benefits accrue from becoming 
more educated productive taxpaying citizens. Given the national 
benefits and the hundred years of support from only Colorado, it is 
time for the Nation to support what has become an unintended unfunded 
Federal mandate. We now have an issue of fairness. It is only fair for 
the Federal Government to support Senate bill 3504 and S. 484.
    FLC owns its dual mission of Colorado's only public liberal arts 
college and historic Native American education mission with pride. We 
are now a college of 23 percent Native American students from 138 
tribes and 45 States. Our 860 Native American students benefit and the 
rich cultural diversity also benefit everyone at FLC and the Durango 
community. FLC ranks 4th in the Nation in the percent of full-time 
Native American undergraduates enrolled in a baccalaureate institution 
(American Indian Science & Engineering Society, 2012). Almost half of 
FLC Native students are from the Navajo Nation (second largest tribe in 
the United States), located 84 miles from campus, and 11 percent are 
from Native Alaskan tribes. FLC awards more degrees to Native American/
Alaskan Native students than any other baccalaureate institution in the 
Nation. From 2006-10, Fort Lewis College awarded over 10 percent (556) 
of the total number of baccalaureate degrees earned by Native American 
students in the United States. In 2010, FLC was 1st in the Nation in 
STEM (science, technology, engineering and math) degrees earned by 
Native Americans.
    The College's tuition waiver provides access and opportunity to the 
most underserved minority population, as less than 1 percent (0.7 
percent) of American Indians attain a baccalaureate degree annually, as 
compared to all other minorities (African-American (8.9 percent), 
Hispanic (7.5 percent), and Asian American (6.6 percent) in the past 10 
years.\2\ The educational attainment rate for Native American students 
is widening as bachelor's degrees conferred by ethnicities has 
increased for every minority group, with Hispanics accelerating the 
highest from 5.6 percent in 1998 to 7.5 percent in 2008. Other 
ethnicities have also had positive percent changes, such as African-
Americans (2.8 percent) and Asian Americans (3.1 percent), while Native 
Americans remained flat over the 10-year period at 0.7 percent.\3\
---------------------------------------------------------------------------
    \3\ IBID.
---------------------------------------------------------------------------
    The Federal Government has provided much more assistance and for 
far greater a time period to Hispanic Serving Institutions and 
Historically Black Institutions. Aside from Tribal College funds, there 
is only a $5.0 million Federal allocation annually that was created in 
fiscal year 2008-9 to support Native American students outside of 
Tribal Colleges, through the Native American Serving, Non-Tribal 
College discretionary funds at the U.S. Department of Education. We are 
one of a small number (18) of Native American Serving, Non-Tribal 
Colleges who focus on bachelors' degree attainment for Native American 
students. We are only one of two with historic mandates that date back 
to the days after the Indian Wars; Fort Lewis College's origins as a 
military fort and an Indian Boarding School. Together, by supporting S. 
3504 we have an opportunity to extend beyond the 2-year Tribal Colleges 
and provide a quality educational experience for Native American 
students, so that they too can compete in the global market place and 
carry the hopes and dreams of their nation, and ours, into prosperity.
    We believe in our mission to educate Native American students and 
we do it well. One great example is our partnership with the Navajo 
Nation to bring the FLC Teacher Education program to the reservation. 
The positive impact of that partnership has been remarkable. In 1990, 
only 8 percent of certified teachers on the Navajo reservation were 
actually Navajo. As a result, instruction struggled as non-Navajo 
teachers lacked the cultural understanding to be effective with Navajo 
students. These struggles led to teacher retention problems for 
reservation schools and a further decrease in educational quality due 
to the high turnover rate for teachers. Today, due in large part to the 
Teacher Education partnership between FLC and the Navajo Nation, over 
60 percent of teachers on the Navajo reservation are Navajo. Test 
scores are up at reservation schools and the schools are showing 
improved Adequate Yearly Progress (AYP). In addition, many other of our 
Native American alumni are doing great things, alumni like Quanah 
Spencer, a Seattle-area attorney; Marsha Greyeyes-Appel, owner of her 
own business in Maryland; Melissa Henry, filmmaker and business owner 
in New Mexico; and, of course, Bill Mendoza, a leader of Native 
American education in Washington, DC. It would be a travesty to be 
unable to provide a broader base of support for a successful national 
program. The scope of the program has far exceeded the expectations set 
forth in the 1911 agreement between the State of Colorado and the 
Federal Government.
    Thank you, Mr. Chairman and committee members, for the opportunity 
to appear before you today in support of S. 3504 and S. 484: I stand 
ready to answer any questions you might have for me.

    Senator Bennet. Thank you, Dr. Thomas.
    Dr. Johnson.

    STATEMENT OF JACQUELINE R. JOHNSON, Ph.D., CHANCELLOR, 
           UNIVERSITY OF MINNESOTA MORRIS, MORRIS, MN

    Ms. Johnson. Thank you. I think you will hear some 
similarities in our stories here.
    Senator Bennet and other distinguished guests, thank you 
for this opportunity to speak to the importance and potential 
impact of the Native American Education Act of 2012. And thank 
you, Senator Bennet, for your leadership on this issue. We're 
also grateful to Minnesota Senator Franken, who I understand is 
a co-sponsor of this bill, even though he couldn't be with us 
today.
    The campus of the University of Minnesota Morris sits on 
land that was once home to the people of the Anishinaabe and 
the Dakota and Lakota nations. Before Morris opened its doors 
as a selective public liberal arts college in 1960, two other 
schools made their home on these lands, the West Central School 
of Agriculture from 1910 until 1963, and an American Indian 
Boarding School from 1887 to 1909.
    The Indian Boarding School was run initially by a Catholic 
order of nuns and subsequently by the U.S. Government's Bureau 
of the Interior. When the Bureau of the Interior turned over 
the buildings and land of the Indian Boarding School to the 
State of Minnesota to establish the agricultural high school, 
it stipulated that American Indian students would be admitted 
on the same conditions as other students and tuition free.
    When the Minnesota State Legislature established the Morris 
campus of the University of Minnesota in 1959, the same 
stipulation remained. These actions, as you know, are legally 
recorded in Federal and State laws. The University of Minnesota 
Morris is one of 30 schools in the country designated as a 
public liberal arts college. We are exclusively focused on 
undergraduates, residential, and serve around 1,800 students.
    Morris is the most racially diverse campus in the 
University of Minnesota System, selective in its admission 
standards, serving an academically talented group of students, 
more than a third of whom are the first generation in their 
families to attend college, and many of whom come from families 
with financial need. Our American Indian students reflect these 
same patterns. In 2011, 40 percent of Morris' Native students 
were low-income, and 45 percent were first-generation.
    Located on the edge of the Minnesota Prairie, as Garrison 
Keillor would say, close to the Dakotas, we are also a national 
leader in sustainability and clean energy initiatives. The 
campus is tied inextricably to the land, to the previous 
educational institutions that have resided here, and to all the 
peoples who have called this place their home.
    American Indians represent, as President Thomas has said, 
about 1 percent of baccalaureate college attending students 
nationally and in the State of Minnesota. At Morris, American 
Indian students comprise over 15 percent of the student body 
this year, and today is our first day of classes. This 
significant native student population makes Morris 1 of some 40 
schools in the country eligible for the designation by the 
Federal Government as a Native American-Serving Non-Tribal 
Institution.
    Morris offers a number of programs that promote the success 
of students of color in general and several programs that are 
aimed particularly at American Indian students. A few months 
ago, Morris was awarded a Howard Hughes Medical Institute Grant 
that includes provisions to support American Indian students in 
summer research. Morris hosts an NSF-funded WindStep program 
that provides a summer immersion research experience for 
middle- and high-school students from reservations in the State 
and region.
    The campus has a strong and active chapter of the American 
Indian Science and Engineering Society, AISES, and will host 
the regional AISES meeting this spring. And the AISES 
publication, Winds of Change, named Morris as one of the top 
200 educational institutions in the country for its support of 
American Indian students in 2011 and again this year.
    While the majority of our native students come from 
Minnesota, more than 50 federally recognized tribes from 14 
States and Alaska Native villages are represented on the 
campus. In all, 25 percent of Morris' American Indian students 
are from out of State.
    Since its founding in 1960, as you noted earlier, Senator 
Bennet, Morris has waived more than $20 million in tuition for 
American Indian students, with $6 million supporting out-of-
state students during that same time period. This year alone, 
we anticipate that we will waive $3 million, with $750,000 of 
that attributable to our out-of-state students. But this cost 
is not fully supported by the State of Minnesota or by the 
University of Minnesota System, and I want to say just a little 
bit about that, because I think our situation is somewhat 
different.
    In Minnesota, the State Legislature provides a direct 
general allocation to the University of Minnesota. The 
University of Minnesota System, in turn, distributes this 
allocation among its five separate campuses. In recent years, 
the University of Minnesota System has allocated directly to 
Morris only a portion of the unrealized revenue that results 
from this waiver.
    In fiscal year 2012, for example, the University of 
Minnesota's central allocation to Morris to support the waiver 
was $1.65 million, approximately 65 percent of the total 
tuition that we waived. Over one-third of the waiver, 
approximately $900,000, was unfunded and absorbed by the 
University of Minnesota Morris. And as I noted, this year, 
fiscal year 2013, we anticipate that $750,000 of the total 
tuition waived will be attributed to out-of-state students.
    We think it is right that the waiver should apply to 
students who are out-of-state as well as in-state. In running 
the American Indian Boarding School, the U.S. Federal 
Government's Bureau of the Interior did not restrict enrollment 
only to those students who were from within the State of 
Minnesota. It drew students from across the region, just as we 
do now.
    In relegating American Indian people to reservations, the 
U.S. Federal Government did not restrict its actions to one or 
two tribes. It was inclusive in its disruption of the lives of 
native people across the country. Thus, our obligation to honor 
the Federal and State statutes by admitting qualified American 
Indian students on the same basis as other students and our 
practice of admitting students without respect to their State 
of residence follows directly from the past and is vitally 
important to the future.
    Education matters, and it is a critical part of the 
American dream. The education we provide to native students on 
our campus is unparalleled in our region and has benefits that 
extend well beyond our State and local borders. The 6-year 
graduation rate for American Indian students at the University 
of Minnesota Morris is 61 percent, compared to 39 percent 
statewide. These graduates go on to serve in their communities, 
native communities, and communities in general as educators, 
healthcare professionals, public servants, lawyers, and 
business leaders. We know that achieving a bachelor's degree 
has a dramatic impact not only on unemployment, but also on 
annual earnings.
    That American Indian families trust their sons and 
daughters to be educated on the land and in the buildings where 
not that long ago a concerted effort was made to obliterate 
their culture and language is a matter of great significance to 
us. And it is a matter of great pride for the University of 
Minnesota Morris that we are able to move these young people 
along the path of education and success.
    The American Indian tuition waiver and its application to 
all native students, regardless of their State of residence, 
represents an effort from the past to redress wrongs done by 
the Federal Government and the American people to members of 
our sovereign Indian nations. The Native American Education Act 
of 2012 acknowledges that the burden of these wrongs should not 
only be borne by Colorado and Minnesota. It provides an 
opportunity for the Federal Government to participate in this 
important educational endeavor and to join with us in fostering 
the success of the population in this country that lives with 
the greatest educational and economic disparity.
    Thank you very much again for this opportunity, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Johnson follows:]
           Prepared Statement of Jacqueline R. Johnson, Ph.D.
                                Summary
    The campus of the University of Minnesota, Morris (UMM) sits on 
land that was once home to people of the Anishinaabe (Ojibwe) and the 
Dakota and Lakota (Sioux) nations. Before UMM opened its doors as a 
selective public liberal arts college in 1960, two other schools made 
their home on these lands: the West Central School of Agriculture 
(1910-63), and an American Indian boarding school (1887-1909).
    When the U.S. Bureau of the Interior turned over the building and 
lands of the Indian boarding school to the State of Minnesota to 
establish the agricultural boarding high school, it was with the 
stipulation that American Indian students would be admitted on the same 
conditions as other students and tuition free. When the Minnesota State 
Legislature established the Morris campus of the University of 
Minnesota in 1959, this same stipulation remained. These actions are 
legally recorded in Federal and State laws.
    The legal and moral legacy reflected in Morris's campus history 
shapes our institutional mission today. The University of Minnesota, 
Morris is tied inextricably to the land, to the previous educational 
institutions that have resided here, and to all the peoples who have 
called this place their home.
    Since its founding in 1960, Morris has waived more than $20M in 
tuition for American Indian students, with $6M supporting out-of-state 
students, most of them from the Dakotas and Wisconsin. The number of 
American Indian students attending Morris has increased dramatically in 
the past 5 years.
    Today, Native students comprise 15 percent of the student body on 
this campus of 1,800. Twenty-five percent of these students are from 
out-of-state. Morris is the most racially and ethnically diverse campus 
of the University of Minnesota, (more than 22 percent students of 
color). Selective in its admissions standards, Morris serves a high 
proportion of first-generation college students from families of 
significant financial need. In 2011, 40 percent of Morris's American 
Indian students were ``low income''; 45 percent were first-generation 
college students. There are many measures of success in the education 
of Native students at Morris, including a 6-year graduation rate for 
American Indian students of 61 percent, compared to 39 percent for 
Native students statewide. (2010 cohort data)
    In Minnesota, the legislature provides a direct general allocation 
to the University of Minnesota. The University of Minnesota system, in 
turn, distributes this allocation among its five separate campuses. In 
recent years, the University of Minnesota system has allocated directly 
to Morris a portion of the unrealized revenue that results from this 
waiver. In fiscal year 2012, e.g., the University of Minnesota's 
central allocation to Morris to support the waiver was $1.65M, 
approximately 65 percent of the total tuition waived. Over one-third of 
the waiver, approximately $900,000, was unfunded and absorbed by the 
University of Minnesota, Morris. This year, fiscal year 2013, we 
anticipate that $750,000 of the waiver will be attributed to out-of-
state students.
    The American Indian tuition waiver represents an effort from the 
past to redress wrongs done by the Federal Government and the American 
people to members of our sovereign Indian nations. That American Indian 
families trust their sons and daughters to be educated on the land and 
in the buildings where not that long ago a concerted effort was made to 
obliterate their culture and language is a matter of great significance 
to us. And it is a matter of great pride for the University of 
Minnesota, Morris that we are able to move these young people along the 
path of educational success. Senate bill 3504 distributes the cost of 
this endeavor more reasonably between the Federal Government and the 
States and provides an opportunity for the Federal Government to join 
with us to foster the success of the population in this country that 
lives with the greatest educational and economic disparity.
                                 ______
                                 
                            in the beginning
    The campus of the University of Minnesota, Morris (UMM) sits on 
land that was once home to people of the Anishinaabe (Ojibwe) and the 
Dakota and Lakota (Sioux) nations. Before the era of westward 
expansion, this land provided support and sustenance to the members of 
these Indian tribes.
    In 1887, in what they saw as a well-intended effort to bring their 
religious beliefs and their teachings to others, members of the 
Catholic order of Sisters of Mercy established an American Indian 
Boarding School on these former Anishinaabe and Dakota/Lakota lands, 
which had, in 1847, become the State of Minnesota. The school removed 
young Indian children from their families and villages across this 
region and brought them to Morris to study and learn non-native ways 
and ``industrial trades''. The Sisters of Mercy ran the school until 
1896, when they turned it over to the U.S. Federal Government's Bureau 
of Indian Affairs. The Bureau renamed the school the Morris Industrial 
School for American Indians and continued to run it for 10 more years.
    In 1909, through Federal legislation and a Minnesota State statute, 
(in Laws 1909, chapter 184), the land, some 290 acres, and buildings 
were deeded to the State of Minnesota for the purpose of establishing 
an agricultural boarding high school under the auspices of the 
University of Minnesota.
    From an ``Act of Congress, March 3, 1909, the Sixtieth Congress, 
Session II: Chapter 268'':

          Minnesota Morris School: That there is hereby granted to the 
        State of Minnesota, upon the terms and conditions hereafter 
        named the following described property, known as the Indian 
        school at Morris Minnesota . . . Aggregating two hundred and 
        ninety acres, with buildings, improvements, and other 
        appurtenances thereon. Provided, That said lands and buildings 
        shall be held and maintained by the State of Minnesota as an 
        agricultural school, and that Indian pupils shall at all times 
        be admitted to such school free of charge for tuition and on 
        terms of equality with white pupils.

    The Governor of the State of Minnesota in 1909--the honorable John 
Johnson--expressed concern at the legislative acceptance of this offer 
from the Federal Government over what he perceived to be (in more 
contemporary language) ``an unfunded mandate'' about to be assumed by 
the State of Minnesota. In a letter to the Acting Commissioner of the 
Department of the Interior, he expressed his doubts:

          I find that under the act of congress authorizing the 
        transfer of this property to the State, and under chapter 184 
        of the Laws of 1909 adopted by the last legislature, it is 
        contemplated that the State should take possession of this 
        property on the first of July, 1909, but I find that the 
        legislature has made no appropriation for the care and 
        maintenance of the school . . . (University of Minnesota, 
        Morris Archives)

    The transfer happened in spite of his concerns.

    For more than 60 years, the West Central School of Agriculture 
provided secondary school opportunities from October through April--
literally after harvest and before planting--for the sons and daughters 
of area farmers. Although our records are not perfect, it appears that 
only a handful of American Indian students were able to take advantage 
of this tuition-free educational experience during the agricultural 
high school era. In a sense, this was a rural version of an 
``exclusive'' boarding school experience, but in this case with modest 
tuition costs and expansive educational opportunities.
    Just as the American Indian Boarding School movement began to wane 
in the early 1900s, so too the fate of the agricultural boarding school 
movement--it had run its course by the late 1950s. Community leaders in 
the small farming town of Morris, MN began, then, to lobby State 
legislators for what they imagined could be an exceptional and somewhat 
unusual educational opportunity for the children of residents of this 
region--a public liberal arts college, fashioned after the elite 
private liberal arts schools that were and are such an important part 
of the upper Midwest and the eastern coast of the United States. The 
citizens prevailed, and the University of Minnesota, Morris was 
established as a 4-year public liberal arts college of the University 
of Minnesota in 1959.
    The original Minnesota State statute of 1909 was revised 
accordingly (1961), affirming the original directive regarding American 
Indian students. From ``Minnesota state statutes: Chapter 137 (a 
statute which updates Minnesota Statute 184 of 1909)'':

          ``State Chapter 137. Section 137.16 MORRIS BRANCH; ADMISSION 
        OF INDIANS. Subdivision 1. The University of Minnesota, Morris 
        branch, situated in whole or in part on the lands described in 
        laws 1909, chapter 184, shall admit Indian pupils qualified for 
        admission at all times free of charge for tuition and on terms 
        of equality with white pupils.'' (Subdivision 2 of this statute 
        provides that subdivision 1 is a substitute for the provisions 
        of Laws 1909 chapter 184.)

    I include this brief historic account in my written testimony 
because the legal and moral legacy reflected in our history shapes our 
institutional mission today. The University of Minnesota, Morris is 
tied inextricably to the land and to all the peoples who have called it 
home. The educational institutions which have resided here are just as 
inextricably tied to greater social movements and initiatives in this 
country--from the American Indian boarding school movement to the 
agricultural boarding high school movement to the expansion of American 
higher education which occurred in the 1960s. This expansion promised 
to prepare a workforce for a growing American economy and it promised 
to open public educational opportunities to a broader array of people--
those less privileged, those underrepresented in American higher 
education.
    As the most racially and ethnically diverse campus of the 
University of Minnesota, (more than 22 percent are students of color in 
a State that is not very racially diverse), as a campus with selective 
admissions standards that serves a high proportion of first generation 
college students (nearly 40 percent in this year's entering class), and 
as a campus that serves many students whose families exhibit 
significant financial need (33 percent are Pell grant recipients; 96 
percent receive financial aid), we are fulfilling that obligation and 
that promise. In 2011, 40 percent of Morris's American Indian students 
were ``low-income''; 45 percent were first-generation college students.
    This is our legacy. We honor it. We are proud of it.
                         why does this matter?
    American Indians represent about 1 percent of baccalaureate 
college-attending students nationally and in the State of Minnesota. At 
Morris, on our residential, undergraduate-focused liberal arts campus 
of 1,800 students, more than 275 American Indian students comprise over 
15 percent of the student body. This significant Native student 
population makes Morris 1 of some 40 schools in the country eligible 
for designation by the Federal Government as a Native American Serving 
Non-Tribal Institution (NASNTI).
    American Indians, who are underrepresented nationally in all fields 
of study, find greater success at UMM than at other universities: 61 
percent of UMM's Native students graduate in 6 years compared with 39 
percent statewide. (2010 cohort data) National, State and regional 
priorities call on us to increase undergraduate participation in 
science, technology, engineering and mathematics (STEM) fields, 
particularly of students from underrepresented groups. The University 
of Minnesota, Morris is responding to this challenge in a number of 
ways.
    This spring, UMM was awarded a Howard Hughes Medical Institute 
grant that includes provisions to support American Indian students in 
undergraduate summer research. Morris hosts an NSF-funded ``WindStep'' 
program that provides a summer immersion experience for middle- and 
high-school students from reservations in the State and region. These 
students live on campus and conduct real research in renewable energy 
both on the campus and on Indian reservations. Morris is a participant 
in another NSF-funded program--the Louis Stokes Alliance for Minority 
Participation in STEM fields (LSAMP). This program provides support for 
students of color, including American Indian students, to engage in 
undergraduate research in STEM disciplines. The campus has a strong and 
active chapter of the American Indian Science and Engineering Society 
(AISES) and will host the regional AISES meeting this spring. And the 
AISES publication, Winds of Change, named Morris as one of the top 200 
educational institutions in the country for its support of American 
Indian students in 2011 and again this year.
    We are also working on language revitalization on this campus, with 
courses in the Anishinaabe language offered as part of our regular 
curriculum and occasional courses offered in the Dakota/Lakota 
languages--one-half of Morris Native students are Anishinaabe and 
nearly a quarter are Dakota/Lakota. UMM has submitted a grant 
application to the State to provide additional funding to prepare K-12 
teachers to teach these Native languages. We are working with our 
tribal community college partners in the region to facilitate the 
transfer of American Indian students who have completed associates 
degrees there to our baccalaureate granting school.
    The tuition waiver is a major factor in promoting the attendance 
and success of American Indian students on this campus. These students 
benefit from the many programs we have established. Eighty-six percent 
of American Indian students who are offered admission end up enrolling 
compared to 38 percent of students overall. As the cost of tuition 
increases, so, obviously, does the value of the waiver.
    This campus has demonstrated its unique and exceptional ability to 
promote educational experiences and opportunities for American Indian 
students, thus fulfilling both its legal and moral obligations. But, as 
Governor John Johnson recognized more than 100 years ago, there are 
significant challenges that come with a mandate whose funding has not 
been carefully thought through. With the passage of Senate bill 3504 
and its companion bill in the House, the Federal Government has an 
opportunity to support our success by funding its fair share of the 
costs of the tuition waiver--that is the portion associated with out-
of-State students.
 what is the financial impact of the waiver on the state of minnesota, 
  the university of minnesota and the university of minnesota, morris?
    The number of Native students has increased steadily at Morris 
since the University's founding in 1960, and it has grown exponentially 
over the course of the past 5 years.
    We estimate that since the Morris campus opened as a public liberal 
arts college in 1960, we have waived over $20 million in tuition for 
American Indian students. The value of the tuition waived for out-of-
State students in that same time period is estimated at over $6 
million. (There is no in-state/out-of-state tuition differential for 
University of Minnesota, Morris students. Tuition for the 2012-13 
academic year for all full-time students is just under $12,000.)
    In 2010 and 2011, 25 percent of Morris's American Indian students 
receiving tuition waivers were from out-of-state. Fifty federally 
recognized American Indian tribes and Alaskan Native villages are 
represented on this campus, and most of our non-resident Native 
students are from States surrounding Minnesota--North Dakota, South 
Dakota, and Wisconsin. We anticipate that in addition to the $20M 
already waived since 1960, we will waive an additional $3 million of 
tuition in the current fiscal year alone, with nearly $750,000 
attributable to out-of-state students (25 percent).
              why we ask for support for senate bill 3504
    The logic in Senate bill 3504 is sound. In running the American 
Indian Boarding School the U.S. Federal Government's Bureau of the 
Interior did not restrict enrollment only to those students who were 
from within the State of Minnesota. It drew students from across this 
region, just as we do now. In relegating American Indian people to 
reservations, the U.S. Federal Government did not restrict its actions 
to one or two tribes. It was inclusive in its disruption of the lives 
of Native people across the Nation. Thus, our obligation to honor the 
Federal and State statutes by admitting qualified American Indian 
students on the same basis as other students and our practice of 
admitting students without respect to their State of residence follows 
directly from the past.
    And yet, in Colorado and in Minnesota, the cost associated with 
this mandated financial requirement is now borne entirely by the two 
States themselves. In Minnesota, the State legislature provides a 
direct general allocation to the University of Minnesota. The 
University of Minnesota system, in turn, distributes this allocation 
among its five separate campuses. In recent years, the University of 
Minnesota system has allocated directly to Morris a portion of the 
unrealized revenue that results from this waiver.
    For example, in fiscal year 2012, (academic year 2011-12) the 
University of Minnesota's central allocation to Morris to support the 
tuition waived for American Indian students was $1.65M, approximately 
65 percent of the total tuition waived. Over one-third of the waiver, 
approximately $900,000, was unfunded and absorbed by the University of 
Minnesota, Morris. Our campus is one of modest financial resources and 
this growing revenue gap is a significant concern for us. We are 
certified by the U.S. Department of Education as eligible for title 
III, IV and V grant funding, with our average educational and general 
expenditures per full-time student falling below the 4-year public 
college average (title III 2011 application, 2009-10 data).
    If modest growth in our American Indian student population 
continues over the course of this decade (2010-19), we anticipate that 
the total tuition waived in this decade will be more than $30 million. 
If the Federal Government were to assume a fair share of this mandate 
by funding the waiver for out-of-state students--as Senate bill 3504 
suggests that it should--Morris would gain modest revenues of around 
$750,000 annually.
                           education matters
    U.S. Census Bureau data (in a 2004 report) show that American 
workers 18 years and older with a bachelor's degree earn on average 
$51,000/year, compared to an annual income of $28,000 for workers with 
a high school diploma. Education matters and it remains a critical part 
of the American dream. In the United States, 28 percent of adults 
nationwide have earned bachelor's degrees compared to 13 percent of 
American Indian adults; in Minnesota, 32 percent of adults have earned 
bachelor's degrees compared to 12 percent of American Indian adults.
    The American Indian tuition waiver represents an effort from the 
past to redress wrongs done by the Federal Government and the American 
people to members of our sovereign Indian nations. The waiver has been 
instrumental in promoting the success of many students over the course 
of the 50 years of UMM's existence. Paulette Fairbanks Molin, White 
Earth Band of Ojibwe, is UMM's first American Indian student graduate 
(UMM 1966). In 1995, she was a recipient of our Distinguished Alumni 
award. In receiving this award, she recounted her experience in coming 
to this campus.
    As an honors student in high school, she noted that she was 
discouraged by a high school counselor who believed she was better 
suited for marriage or attendance at an Indian trade school in Kansas 
than she was for a college degree. Nevertheless, she persevered and 
enrolled. She recalled her mother shivering when they arrived on 
campus, saying it reminded her of an Indian Boarding School. Her mother 
would know, having herself attended the boarding school at Pipestone, 
MN.
    Paulette went on to earn a doctorate at the University of 
Minnesota, Twin Cities and then became a higher education 
administrator, serving as assistant dean of the graduate college and 
director of the American Indian Educational Opportunity Program at 
Hampton University in Virginia.
    At the end of the tribute that marks her acceptance of the 
distinguished alumni award, Dr. Molin says,

          ``UMM exposed me to new ideas and fostered my love of reading 
        and learning while providing me with a home away from home. UMM 
        also introduced me to new possibilities, possibilities that 
        could transform lives, families, communities, and, indeed, the 
        world. I was destined to remain on campus for 4 years, 
        confounding expectations and beating the odds to graduate. 
        Finally, there is this. UMM was pretty young, but built upon an 
        American Indian foundation, a perfect match for a 17-year old 
        with the same profile.''

    The wrongs of the past and this contemporary effort to address them 
weave their way into the future in a most positive way. That American 
Indian families trust their sons and daughters to be educated on the 
land and in the buildings where not that long ago a concerted effort 
was made to obliterate their culture and language is a matter of great 
significance to us. And it is a matter of great pride for the 
University of Minnesota Morris that we are able to move these young 
people along the path of educational success. Senate bill 3504 
distributes the cost of this endeavor more reasonably between the 
Federal Government and the States and provides an opportunity for the 
Federal Government to join with us to foster the success of the 
population in this country that lives with the greatest educational and 
economic disparity.

    Senator Bennet. Thank you, Dr. Johnson.
    Mr. Echohawk, thank you for being here.

   STATEMENT OF JOHN E. ECHOHAWK, EXECUTIVE DIRECTOR, NATIVE 
               AMERICAN RIGHTS FUND, BOULDER, CO

    Mr. Echohawk. Thanks for the invitation, Senator.
    Over 40 years ago, I was a young lawyer starting out with 
the Native American Rights Fund headquartered in Boulder. We're 
set up to be the national Indian legal defense fund 
representing tribes and native organizations and individuals 
across the country in important issues. And, of course, 
educational rights are among those issues.
    Even though we are a national organization with cases 
across the country, one of the first cases that we got involved 
in was this controversy over the tuition waivers at Fort Lewis 
in the early 1970s. As a young lawyer, I was down here at the 
State Capitol, watching the proceedings as the State 
Legislature moved to try to limit the tuition waivers to 
Colorado resident Indian students. Of course, that was not 
supported by the native community.
    That basically then led to litigation, which the Native 
American Rights Fund helped with as Of Counsel. We were able to 
get the Federal Government to bring litigation to enforce the 
right to tuition waivers for all Indian students regardless of 
residency. We also assisted a private attorney in bringing a 
lawsuit on behalf of the Indian students themselves to enforce 
the State of Colorado's obligation to provide tuition waivers 
to all Indian students as well.
    The case proceeded up to the 10th Circuit, and they ruled 
in 1973, affirming a lower court decision that, indeed, the 
State of Colorado, under the 1910 Federal law, was obligated to 
provide tuition waivers to all Indian students regardless of 
residency, and that the 1910 law and the 1911 act by the State 
Legislature here created a contract between the Federal 
Government and the State of Colorado to provide that tuition-
free education to all Indian students. And, for the record, I 
included a copy of that 1973 decision.
    So the State of Colorado complied with the law and started 
continuing to provide the tuition waivers. But, of course, over 
the years, as we've all talked about here today, the number of 
native students at Fort Lewis--since it's such a great 
institution and Native Americans are in such need of 
educational assistance, the number of students has grown, and 
the cost to the State of Colorado has grown significantly as 
well.
    I am here to support the passage of S. 3504 because I think 
it's important to keep the tuition waivers going. If the State 
of Colorado is having difficulty doing that, as the Lieutenant 
Governor has talked about, then I think it's appropriate for 
the Federal Government under the Federal trust responsibility 
to come forward and assist the State of Colorado in providing 
those tuition waivers for all Indian students at Fort Lewis 
College. And I am very hopeful that the Congress will see fit 
to pass this legislation.
    [The prepared statement of Mr. Echohawk follows:]
                 Prepared Statement of John E. Echohawk
                                summary
    I was involved as a lawyer with the Native American Rights Fund in 
successful litigation in the early 1970s on behalf of Indian students 
at Fort Lewis College that forced the college to comply with Federal 
law that required the college to admit all qualified Indians to the 
college free of tuition. Fort Lewis School had been a Federal property 
that admitted Indians tuition free and when the property was 
transferred to the State of Colorado in 1910 a condition was attached 
that required that Indians continue to be admitted to the school 
tuition free. Tuition waivers for all Indian students, whether Colorado 
residents or non-residents, are required by law.
    As the number of Indian students at the College has grown over the 
years, the cost of the Indian tuition waivers has grown. S. 3504 would 
provide Federal financial assistance to the State of Colorado and Fort 
Lewis College to help cover the costs of the Indian tuition waivers. 
The Native American Rights Fund supports S. 3504 so that tuition fee 
education for qualified Indian students can continue.
                                 ______
                                 
    Mr. Chairman, thank you for the invitation to testify today on S. 
3504, the Native American Education Act of 2012. I am John Echohawk, a 
citizen of the Pawnee Nation of Oklahoma, and executive director of the 
Native American Rights Fund headquartered in Boulder, CO. We have 
served as the national Indian legal defense fund since we were founded 
in 1970 and have been providing legal advice and representation to 
Native American tribes, organizations and individuals on nationally 
significant Indian issues for the past 42 years.
    Among the priority issues that we have always addressed is 
educational rights for Native Americans
    As a young lawyer with the Native American Rights Fund in the early 
1970s, I became involved with the controversy over Indian tuition 
waivers at Fort Lewis College in Durango, CO. At that time, the State 
of Colorado and Fort Lewis College were trying to limit the waiver of 
tuition for Indian students to Indian students who were Colorado 
residents. Prior to that time, tuition had always been waived for all 
Indian students pursuant to the 1910 Federal law that transferred 
Federal property near Durango containing Fort Lewis School which served 
Indian students over to the State of Colorado. The land grant was 
accepted by the State of Colorado and contained a condition that the 
land be used for a school and Indians be admitted to the school free of 
charge for tuition.
    Litigation ensued brought by the Federal Government and Indian 
students at Fort Lewis to stop the State of Colorado and Fort Lewis 
College from limiting Indian tuition waivers. The Native American 
Rights Fund participated in the case in an AOf <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c685a9b3a8b5a3aa86">[email&#160;protected]</a> role. In 1973, 
the Tenth Circuit Court of Appeals affirmed a Federal district court 
decision in favor of the Federal Government and the Indian students 
(Tahdooahnippah v. Thimmig, 481 F.2d 438). A copy of that decision is 
attached to my testimony for inclusion in the record.
    The Tenth Circuit Court of Appeals held that a contract existed 
which required the State of Colorado and Fort Lewis College to admit 
all Indian students tuition free who were otherwise qualified. Over the 
years, the number of Indian students attending Fort Lewis has increased 
so the cost of the tuition waivers for the State of Colorado and Fort 
Lewis College has increased as well. If passed, S. 3504, the Native 
American Education Act of 2012, would provide Federal financial 
assistance to the State of Colorado and Fort Lewis College in meeting 
the costs of tuition waivers for Indian students.
    The Native American Rights Fund supports the passage of S. 3504 to 
authorize Federal funding to assist the State of Colorado and Fort 
Lewis College to meet its obligations to Indian students. The Federal 
Government has a trust responsibility to assist Indian students to 
obtain higher education. Indians are among the poorest and least 
educated people in the United States so the need is great. Fort Lewis 
College has become a great educational resource for Indian students and 
the United States should assist the State of Colorado to maintain that 
valuable educational resource for Indians.
                               attachment
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Bennet. Thank you. Thank you for being here.
    Mr. Tsabetsaye, we'd love to hear your testimony.

  STATEMENT OF BYRON TSABETSAYE, STUDENT BODY PRESIDENT, FORT 
                   LEWIS COLLEGE, DURANGO, CO

    Mr. Tsabetsaye. Thank you, Senator. Good morning,
    Mr. Chairman and members of the Senate Committee on Health, 
Education, Labor, and Pensions. My name is Byron Tsabetsaye. I 
am the president of the Associated Students of Fort Lewis 
College.
    When I was a very young boy just beginning to truly grasp 
the concept of education, I sat at the kitchen table with my 
father before a piece of paper. The piece of paper contained a 
lesson of counting money, particularly with coins. I was posed 
with the task of combining coins so they matched given odd 
amounts.
    Though counting change was the lesson, my imagination 
grasped a far different lesson. I presented to my father the 
solution to one of the exercises only to witness the 
disappointment on his face. Rather than using the traditional 
coins, pennies, nickels, dimes, and quarters, I decided to make 
my own coins by creating one with the value of 2 cents. Though 
I didn't see it then, it was my first exposure to my dreams and 
reality.
    Last November, I had the opportunity to speak at an event 
called ``Toast to Leadership'' at Fort Lewis College. The event 
was created by students to give students a chance to improve on 
their public speaking skills via experience and evaluation. I 
was asked to speak at the event on my topic of choice. The 
topic I chose to speak about was education, specifically my 
understanding of education.
    I grew up in the capital of the Navajo Reservation, a 
nation inside a nation where people strive to live in 
widespread poverty and little opportunities. It's not easy to 
believe that in the year 2012 there are people that live in our 
country with no electricity and running water. It's not 
comfortable to know that children have the capacity to dream 
big but dream with limits due to lack of opportunity and 
exposure. It's unsettling to witness such great potential 
dwindle in high school graduates that don't have the resources 
to obtain a college education, even after surpassing the level 
of their parents' education.
    I find comfort in knowing that at Fort Lewis College, there 
is a huge opportunity for Native Americans to achieve a college 
education. I have no doubt that all Native American students at 
Fort Lewis College hold their education with a very high value 
if not priceless. I have great respect for those individuals 
who fought their limiting beliefs and saw the feasibility of 
achieving a college education.
    My friend, Jessica Stewart, a Navajo student who served as 
the president of Beta Alpha Psi, an international honors 
organization for accounting and business majors, created 
opportunities for all students on campus, organizing trips to 
businesses and accounting firms. Jessica connected students 
with achieving their career goals. She also served as a student 
senator and made substantial progress holistically at Fort 
Lewis College.
    I shared joy with Jessica as she achieved her dream of 
obtaining a job from one of the top accounting firms in the 
world. Jessica is just one of many Native American students at 
Fort Lewis College that is truly making a positive difference 
for students on campus.
    When choosing Fort Lewis College, I saw a window of 
opportunity. It was a window that opened more windows for me in 
the realm of higher education. My involvement and participation 
on campus has been dense. I am incredibly grateful for my 
college education at Fort Lewis College, and I am inspired to 
give back to the college and community.
    I served as the vice president of our college's chapter of 
the National Society of Leadership and Success. I created and 
facilitated success networking teams on campus that allowed 
students to convene and share their goals. It was an 
opportunity for students to help one another reach their goals. 
I give back to our admissions department as a student 
Ambassador. I welcome and help new students lay a foundation 
for their college years at Fort Lewis College as a new student 
orientation leader.
    In a recent jog in the park, I saw a very young boy 
climbing up a pillar made of uneven rocks, and he was nearly at 
the top. The adult of the boy sat on a bench close to him 
unwary, as she didn't provide any resistance to his ambition. 
The boy, also unwary, used the pillar as a climbing wall 
because he saw a challenge without limits.
    I will soon begin my senior year at Fort Lewis College. 
I've never been more eager to begin an academic year. I have 
been envisioning all my possibilities since I was elected 
student body president. I stand in confidence not only 
representing the 138 tribes of Native Americans at my college, 
but all students of Fort Lewis College.
    Though I now know there is a difference in dreams and 
reality, I am not afraid to dream unrealistically. Without the 
Native American tuition waiver, many possibilities and dreams 
will be ceased.
    Thank you for your time, Mr. Chairman and committee 
members, and for the opportunity to appear before you today in 
support of Senate bill 3504 and Senate bill 484. I stand ready 
to answer any questions that you may have for me.
    [The prepared statement of Mr. Tsabetsaye follows:]
                 Prepared Statement of Byron Tsabetsaye
                                summary
                       native american education
    An education is unique to any individual considering the 
characteristics, privilege, and demographics of the individual. My 
testimony shines the light on the education of Native Americans, 
particularly in higher education. There is an unfortunate reality for 
Native Americans because they lack the resources and understating of 
higher education. My self-realization of school being mandatory in my 
K-12 years and a privilege/possibility in college has prompted me to 
think substantially of the importance of Native American Education.
    I found it hard for us as Native Americans to overcome the limiting 
beliefs that came face to face with us throughout our upbringing. Many 
young children live in rural places on the Navajo Reservation; far from 
schools and the little resources our communities had. Unfortunately, 
some of us get stuck believing that a college education is not an 
option. I can understand why the agreement was made at Fort Lewis 
College for Native Americans to receive an opportunity at education at 
no cost.
    At Fort Lewis College, Native Americans see a possibility in 
challenging their limiting beliefs. My testimony contains an underlying 
theme: dream vs. reality. When given the resources and opportunities, 
one's possibilities become infinite. I have overcome my limiting 
beliefs and my success has proven to make considerable positive changes 
in the realm of higher education at Fort Lewis College. I am one of 
many successful Native American Students at Fort Lewis College. We need 
Fort Lewis College and the college needs us.
                                 ______
                                 
    Good Morning Mr. Chairman and members of the Senate Committee on 
Health, Education, Labor, and Pensions, my name is Bryon Tsabetsaye and 
I am the president of the Associated Students at Fort Lewis College.
    When I was a very young boy just beginning to truly grasp the 
concept of education, I sat at the kitchen table with my father before 
a piece of paper. The piece of paper contained the lesson of counting 
money, particularly with coins. I was posed with the task of combining 
coins so they matched given odd amounts. Though counting change was the 
lesson, my imagination grasped a far different lesson. I presented to 
my father, the solution to one of the exercises only to witness the 
disappointment on his face. Rather than using the traditional coins: 
pennies, nickels, dimes and quarters, I decided to make my own coins by 
creating one with the value of two cents. Though I didn't see it then, 
it was my first exposure to my dreams and reality.
    Last November, I had the opportunity to speak at an event called 
``Toast to Leadership'' at Fort Lewis College. The event was created by 
students to give students a chance to improve on their public speaking 
skills via experience and evaluation. I was asked to speak at the event 
on my topic of choice. The topic I chose to speak about was education, 
specifically my understanding of education.
    I grew up in the capital of the Navajo Reservation, a nation inside 
a nation where people strive to live in widespread poverty and little 
opportunities. It's not easy to believe that in the year 2012 there are 
people that live in our country with no electricity and running water. 
It's not comfortable to know that children have the capacity to dream 
big but dream with limits due to lack of opportunity and exposure. It's 
unsettling to witness such great potential dwindle in high school 
graduates that don't have the resources to obtain a college education, 
even after surpassing the level of their parent's education.
    I find comfort in knowing that at Fort Lewis College, there is a 
huge opportunity for Native Americans to achieve a college education. I 
have no doubt that all Native American students at Fort Lewis College 
hold their education with a very high value if not priceless. I have 
great respect for those individuals who fought their limiting beliefs 
and saw the feasibility of achieving a college education.
    My friend, Jessica Stewart, a Navajo student who served as the 
president of Beta Alpha Psi, an international honors organization for 
accounting and business majors. Jessica created opportunities for all 
students on campus organizing trips to businesses and accounting firms. 
Jessica connected students with achieving their career goals. Jessica 
also served as a student senator and made a substantial progress 
holistically at Fort Lewis College. I shared joy with Jessica as she 
achieved her dream of obtaining a job from one of the top accounting 
firms in the world. Jessica is just one of many Native American 
students at Fort Lewis College that is truly making a positive 
difference for students on campus.
    When choosing Fort Lewis College, I saw a window of opportunity. It 
was a window that opened more windows for me in the realm of higher 
education. My involvement and participation on campus has been dense. I 
am incredibly grateful for my college education at Fort Lewis College 
that I am inspired to give back to the college and community. I served 
as the vice president of our college's chapter of the National Society 
of Leadership and Success. I created and facilitated successful 
networking teams on campus that allowed students to convene and share 
their goals. It was an opportunity for students to help one another 
reach their goals. I give back to our admissions department as a 
student Ambassador. I welcome and help new students lay a foundation 
for their college years at Fort Lewis College as new student 
orientation leader.
    In a recent jog in the park, I saw a very young boy climbing up a 
pillar made of uneven rocks and he was nearly at the top. The adult of 
the boy sat on a bench close to him unwary as she didn't provide any 
resistance to his ambition. The boy, also unwary, used the pillar as a 
climbing wall because he saw a challenge without limits.
    I will soon begin my senior year at Fort Lewis College. I've never 
been more eager to begin an academic year. I have been envisioning all 
my possibilities since I was elected student body president. I stand in 
confidence not only representing the 138 tribes of Native Americans at 
my college, but all students of Fort Lewis College. Though I now know 
there is a difference in dreams and reality, I'm not afraid to dream 
unrealistically. Without the Native American Tuition Waiver, many 
possibilities and dreams will be ceased.
    Thank you for your time Mr. Chairman and committee members for the 
opportunity to appear before you today in support of S. 3504 and S. 
484: I stand ready to answer any questions that you may have for me.

    Senator Bennet. Thank you. Thank you very much for your 
testimony.
    I'll just start here and come across.
    Dr. Thomas, could you say a little bit about how the 
tuition waiver program has provided benefits to the entire 
country, particularly with respect to STEM education?
    Ms. Thomas. I would be happy to. Fort Lewis College is No. 
1 in STEM degrees awarded to Native American students. We have 
about $8 million in Federal grants right now. We are doing the 
best we can to pull ourselves up by our own boot straps. We 
have a National Institute of Health grant for $2 million over 5 
years called MARC--Minority Access to Research Careers. And 
these are to assist our graduates to go on for health-related 
Ph.D.s.
    We are identifying talented students and supporting and 
training them for the next step after their bachelor's degree. 
We have a National Science Foundation STEM talent expansion 
program, which is $800,000 over 5 years, to help with science 
classes, tutoring, and research projects, and it's in 
partnership with San Juan College, moving students from their 
2-year degree to us for their transfer to a bachelor's degree.
    We have a Department of Education Title III Native 
American-Serving Non-Tribal Institution award of $2 million, 
which provides equipment, facilities, and curricular support 
for Native American students. We have another Department of 
Education title III grant for math foundations and STEM 
success. That's another $2 million. And we've created a great 
deal of help there for math instructors, for changes in course 
materials. We have an Algebra alcove, so we're really working 
on the math fundamentals and calculus moving through. We have 
two Department of Education Student Support Services TRiO 
grants of $2 million.
    In addition to these programs, we have a very active and 
well-supported Native American Center with five people who help 
with enrichment advertising. We have academic counseling and 
math and science support there as well. So we have a strong 
infrastructure to help our students move not just through the 
bachelor's, but on into graduate degrees.
    I would comment, when you asked about the Nation, that we 
have a partnership with the Navajo nation to bring Fort Lewis 
College teacher education to the reservation. The positive 
impact of that partnership has been remarkable. In 1990, only 8 
percent of certified teachers on the Navajo reservation were 
actually Navajo. As a result, instruction struggled as non-
Navajo teachers lacked the cultural understanding to be 
effective with Navajo students. These struggles led to teacher 
retention problems for reservation schools and a further 
decrease in educational quality due to the high turnover rate 
of teachers.
    Now, due in large part to the teacher education partnership 
with Fort Lewis College, over 60 percent of the teachers on the 
Navajo reservation are Navajo. Test scores are up at 
reservation schools, and they're showing improved adequate 
yearly progress.
    In addition, I would cite anecdotal evidence of many of our 
Native American alums who are doing great things. Quanah 
Spencer is a Seattle area attorney. Marsha Greyeyes-Appel owns 
her own business in Maryland. Melissa Henry is a filmmaker and 
business owner in New Mexico. And, of course, you just heard 
from Bill Mendoza, part of President Obama's diversity 
initiative.
    Senator Bennet. In the context of all of that, maybe you 
could elaborate a little bit on the particular responsibilities 
from your point of view to this Nation that come with being a 
Non-Tribal Native American-Serving College.
    Ms. Thomas. The responsibilities are, of course, 
contractual with the State of Colorado. In addition to that, we 
go back to the fact that our country has done much more to help 
African-Americans and Hispanics than they have done to help 
Native Americans with higher education.
    While we come with a rather peculiar route from a 100-year-
old contract that no one could have foreseen to turn into this, 
both the University of Minnesota Morris and Fort Lewis College 
have ended up as magnets, as centers, who welcome their charge, 
their mission, for Native American education and who also are 
the baccalaureate institutions for the 2-year tribal colleges, 
encouraging students to go on and seek the 4-year degree. So we 
become, in effect, a type of historically native institution, 
with responsibilities far beyond that of the respective States 
of Minnesota and Colorado.
    Senator Bennet. Dr. Johnson, do you have anything you'd 
like to add?
    Ms. Johnson. Just more of the same. I was thinking, 
President Thomas, as you were speaking about the particular 
mission of our institutions along with the 30 in the country 
that were public liberal arts colleges, our campus is much more 
like the private liberal arts schools that are really important 
in the Midwest and especially on the East Coast.
    We offer that kind of education that was once reserved for 
privileged, was once reserved for elites, and we offer that 
same quality of education in a residential-focused 
undergraduate experience. We are able to serve and proud to 
serve native students in that kind of special education 
environment, I think, is an extraordinary mission, and it's an 
honor to be part of an organization like that.
    Like the students at Fort Lewis College, we want our 
students, when they graduate, to stay in Morris. We're a small 
town, and so there aren't a lot of opportunities. We'd love it 
if they would stay in the State of Minnesota. But the truth is 
that our students are going around the country, and they're 
serving, and they're contributing to the essential qualities of 
democratic society in the kind of education that we provide. 
That includes civic engagement and service and a sense of 
citizenship.
    That's the particular mission of public liberal arts 
colleges. And that we're able to serve a large percentage of 
students who represent under-represented groups is a really 
special thing. I would just add that piece.
    Senator Bennet. President Thomas, could you talk a little 
bit about what you're doing to improve graduation rates for 
Native American students at Fort Lewis?
    Ms. Thomas. I would be happy to. Many of our students have 
the bumpy road that Bill Mendoza talked about. We have worked 
very hard in the last 10 years to increase our retention rates, 
and they have gone in that period from 37 percent to 54 
percent. Our graduation rates spread out further, and in 6 
years, we're at 23 percent, at 10 years, we're 28. Our Native 
American students very often take longer. They will come in and 
out, or they will simply not take as large a load. Sometimes it 
takes longer to choose a major. And we are working very hard 
with the complete college----
    Senator Bennet. I'm sorry. Is that for economic reasons?
    Ms. Thomas. Often it is for economic reasons. Even with the 
waiver, they still have room and board and fees to pay--and 
with the need for Pell grants and to take loans. They sometimes 
drop out and work, or they will go home, and then they will 
come back. So we see a lot more of the bumpy roads.
    We're working really hard, and the whole initiative of 
Complete College America and, particularly, Complete College 
Colorado, for the Finish in Four--and we're working very hard 
to help students explore, but explore more quickly and try to 
move through to their degree a little faster than they have 
done. We would love it if it was quite a lot faster. So the 
whole Complete College Colorado movement has really given us 
the inspiration to focus on that and push for that.
    Senator Bennet. Chancellor, could you talk about--if we 
were able to get this passed, and the Federal Government were 
able to help with the responsibility here that we all want to 
fulfill--how that might improve the quality of your program or 
help you improve the quality of your program for Native 
American students, in particular?
    Ms. Johnson. Thank you. I appreciate the question, and I 
want to come back just for a minute and revisit the difference 
in how the funding formulas work in our two States, because I 
think it's important for the record to note that we forego just 
under $1 million a year now in tuition revenue that is not 
funded through the University of Minnesota System because of 
the way in which the allocation happens, and, again, $750,000 
this year coming from out-of-state students.
    Like Fort Lewis College, we've been the recipients of a 
number of grants that have assisted all of our students, but, 
in particular, Native American students. But we need to do 
more. We would use the additional funding in particular ways.
    Following the lines of an answer to the question that you 
just posed, for the Regents of the University of Minnesota, for 
the legislators in the State of Minnesota, graduation rates and 
retention rates are really, really important. If we're 
investing money in education, we want to see the outcomes. We 
want to see that students are moving their way through the 
system. We would continue to invest in the programs that we 
have and to enhance them to speed the graduation and the 
quality of the experience for our undergraduate students.
    I mentioned in my testimony that our native students have a 
61 percent 6-year graduation rate at our university. That's a 
product, I think, of our size and some of the selectivity 
indicators. But it's also a product of the programs and the 
staff that we have to support those students. We support 
students through a WindStep program, so it's the step program 
that you also mentioned, bringing the middle and high school 
students to our campus.
    More than 50 percent of our students participate in 
undergraduate research--all of our students. We have several 
programs that are specifically geared toward American Indian 
students participating in undergraduate research. We know that 
students who are engaged year-round and students who are 
engaged as you are in so many different aspects of campus life 
are the students who are most likely to persist.
    Principally, our dollars are invested in our undergraduate 
students--maybe not as much as we would like sometimes in 
faculty and staff salaries, things like that. But we think 
that's the most important investment we could make, and that 
would be the impacts that we would look to.
    Senator Bennet. Actually, while we have you here, and since 
you've come all the way from Minnesota, if there are two or 
three things that you're doing that you think are particularly 
useful that ought to be replicated in other places, for the 
record, would you like to tell us what those would be?
    Ms. Johnson. I would. I think some of the same things that 
President Thomas has talked about--we participate in the 
Federal Government's LSAMP program, in the NSF WindStep 
program. We are a campus that has really set some standards 
across the country in terms of renewable energy and 
sustainability, and we're using that as a platform for 
undergraduate research.
    The WindStep program that serves middle and high school 
students actually has those students engaged in doing real 
research on the reservation. Last summer, they worked on the 
White Earth reservation and scoped out the possibilities of 
wind turbines. Our campus is powered by wind. Some days, we're 
100 percent off the grid.
    I mentioned that we are active in the American Indian 
Engineering Society. We are in the process of leveraging our 
relationship with the University of Minnesota System this year 
to develop a program with the graduate program in nursing on 
the Twin Cities campus that will prepare graduate students in 
nursing, particularly for rural communities and American Indian 
communities. We're using that sense of legacy and mission to 
really better the lives, we hope, of people not only on our 
campus and in our State, but around the country.
    Senator Bennet. Thank you. Finally, if you also could help 
us understand how the program at your school is benefiting the 
Nation as a whole, I think that helps give context to why we're 
having the discussion that we're having here today.
    Ms. Johnson. You have heard some differences. As I 
mentioned earlier, 25 percent of our students are from out-of-
state. That's been a pretty consistent number. But we also 
represent 50 tribes. I just want to reinforce this, that I 
think in the original boarding school, students who were served 
were not just from Minnesota. In fact, more of our students in 
the boarding school were from the Dakotas. We're in western 
Minnesota. We're very close to the Dakota boundaries.
    I think the legacy and the impact of this American Indian 
tuition waiver is intended not just to be limited by State 
boundaries, but is really intended to redress some of the 
wrongs that were part of this Nation's history. And we are 
doing that in really important ways.
    Students from Minnesota are in Washington, DC. They're all 
across the country--our students who have graduated--in terms 
of the work that they're doing. So it's really wrong to think 
about this waiver as something that is just limited by State 
boundaries, both in terms of the students that we serve and in 
terms of where those students go. They are serving this country 
in important ways and contributing to the democratic fabric of 
this society.
    Senator Bennet. That brings me to Mr. Echohawk for some 
legal help on this. You are the expert in many ways on this, 
and your work is so well-known over many decades. I wanted to 
ask whether you thought the bill changes the terms of the 
original 1911 agreement between the State and the Federal 
Government, or do you feel it simply allows the Federal 
Government to pay a portion of the cost of the tuition waiver 
program?
    Mr. Echohawk. I don't think that it would change the 
provisions of the original contract. I think it's just a way 
for the Federal Government to come in and assist with the 
execution of the obligations by the State of Colorado of those 
provisions that are in the contract and pursuant to the Federal 
trust responsibility, which I think is what the Federal 
Government was doing in 1910 when it had the school, and its 
intent to make sure that Indians could be educated there. I 
think it would just basically be assisting the State of 
Colorado to do that, even though Colorado has the obligation 
under the contract to do that as well.
    Senator Bennet. Could you, while you're here, say a little 
more about what the nature of that trust responsibility is and 
what the cases that you've been involved with--how they inform 
your understanding of that trust responsibility and how it's 
being fulfilled through this contract that we have as the State 
of Colorado and will help support if we're able to pass this 
legislation at the Federal level?
    Mr. Echohawk. Under the U.S. Constitution, the Federal 
Government entered into, basically, a government-to-government 
relationship with tribal nations. Tribal affairs are the 
exclusive province of the Federal Government, and pursuant to 
that constitutional provision, many treaties were made, and the 
Federal Government has always dealt with tribes on a nation-to-
nation basis. Part of that relationship has been assisting 
Indian nations to continue their existence as sovereign 
governments and to do the things that governments need to do 
for their people.
    As part of that relationship, the Federal Government has 
provided money for many different services for tribal citizens, 
and among those things that they have assisted with has been 
education, not only at the K-12 level, but at the college 
level. My own law school education was funded by the Federal 
Government as part of this Federal trust responsibility to 
assist Indians broadly, including in the area of education.
    I think it's very appropriate for the Federal Government to 
see what's happened at Fort Lewis. As we've talked about here, 
it's the most popular 4-year college in America in terms of the 
number of Indian graduates it produces. And it's certainly 
within the Federal Government's realm to recognize that and to 
do what it can to continue that success story for native 
students.
    Senator Bennet. Thank you. Thank you again for being here 
today.
    Mr. Tsabetsaye, could you talk about how important the 
tuition waiver is for students at Fort Lewis College, in your 
view? What difference would it make if it went away?
    Mr. Tsabetsaye. A huge difference. It would be the 
difference in my education, the reason for me sitting here 
today. I believe that my education is my core, and it's what 
makes me--and I think that a lot of the students at Fort Lewis 
College that are Native American would agree that because of 
their education, they are able to achieve such success and 
opportunities in their lives, compared to a lot of the students 
that drop out and a lot of the students that don't have other 
opportunities in their lives and remain on the reservation or 
in other areas where they're not able to achieve success.
    The Native American tuition waiver at my school, quite 
frankly, is the one opportunity for everyone, for Native 
Americans to get their education. I've been asked that many 
times, and I know with many students, an education is unique to 
their own selves. So when I say that it makes me, I know that a 
lot of students still have the same feelings, however, they 
have their own beliefs and thoughts on how their education has 
benefited them and how they can achieve success in their lives, 
not just in college, but also in their careers for after 
college.
    Senator Bennet. I appreciate very much your use of the 
word, unique. So I'm going to ask a second question about that. 
Tell us what has been unique about your experience at Fort 
Lewis College and your impression about your experience there 
versus other choices that you might have made to go to other 
universities. What's been particularly special for you about 
Fort Lewis?
    Mr. Tsabetsaye. How my education is unique to me is 
because, as I mentioned in my testimony, there are many 
students on the reservation that don't see the opportunities 
and don't pass their limited beliefs. It's unique to me because 
I was able to overcome my limiting beliefs. Graduating high 
school was really a big deal for me, even though I had no 
immediate plans for college after high school until the month 
before August, after graduating high school.
    I enrolled in college at the very last minute, registered 
for classes at the very last minute, and from there, I saw an 
opportunity of achieving an education. Prior to that, it was 
hard for me to believe--and a lot of the students that I 
graduated high school with--that it was even a possibility. For 
me to understand that, it really helped me lay a foundation for 
what could be my career in college and professionally.
    At Fort Lewis College, I was able to hop on with so many 
opportunities and organizations and clubs and things on campus 
that have helped me achieve those goals and overcome more 
limiting beliefs that I faced and hurdles and, as they have 
mentioned, ``bumpy roads,'' which I too experienced. I felt 
that at Fort Lewis College, I've had those clubs and 
organizations to rely on to help me succeed, as well as mentors 
and professional staff who consider me as a colleague, as 
opposed to a student.
    Senator Bennet. I can't resist to ask how you went from 
graduating from high school, obviously, to prepare to go to 
college and concluding that you were going to go to college in 
that month. How did that happen in the summer?
    And then this is not the topic, necessarily, of this 
hearing, but for the record and for the benefit of the 
committee and for the work that we need to do on Native 
American education, generally, I wonder if you could share your 
own impressions about your K-12 experience, what room for 
improvement there is and what we ought to be doing to deliver a 
higher quality education and make sure more people are ready 
when they graduate from high school to go to college. I'm sorry 
to ask you for that dissertation, but since you're here, I'd 
like it in the record.
    Mr. Tsabetsaye. My decision to go to college was, like I 
said, last minute. But it was also because of someone in my 
life, a family member, who knew of the opportunity and who saw 
potential that I didn't see and offered me a place to stay and 
help in getting into college. So when I saw that help, I took 
it, even though I didn't know--I wasn't 100 percent about it at 
the time.
    In my K-12 years, I lived--there are many towns on the 
reservation that are rural, and when I'm talking rural, I mean 
one or two houses. That is considered your own community. I 
lived far from my school, and every day, I actually passed the 
border, because, technically, we lived very close to the New 
Mexico border. The road that took me to school went into the 
New Mexico border and then back into the Arizona border, and so 
every day was quite a challenge to get to school.
    Even today, with my little sister, who is in the seventh 
grade, my parents have to drive her about 10 miles for her to 
get to the bus that will take her to school. So when I say that 
the towns are rural, that also gives you other challenges to 
being involved in school and seeing opportunities.
    I know that there were many things in school that I could 
have gotten involved with, but I couldn't because I lived far 
from the school that I attended. And I know that there are a 
lot of kids on the reservation still that probably see those 
hurdles of being far from the school. But even if not the 
distance, they don't have the motivation or they don't see the 
possibility.
    Senator Bennet. What is the plan after you graduate?
    Mr. Tsabetsaye. After I graduate Fort Lewis, I will 
continue my education, and within the next couple of weeks, I 
will start applying to graduate school. I will be majoring in 
higher education and student affairs. A lot of what I do at 
Fort Lewis College is in the realm of student affairs and 
higher education. As I stated in my testimony, I help a lot of 
students with their college careers and help them build a 
foundation for their professional career.
    I plan to do that professionally, and I really have a 
passion for what I do at the college and the people that I work 
with who are in those careers. I think that my help to them and 
for the college has been substantial, and I know that in the 
future, it's going to be even greater.
    Senator Bennet. Thank you very much for your testimony. It 
has been inspirational. I'm very grateful that you came here.
    And to everybody on the second panel, thank you very much 
for your efforts getting us to this point. We'll be back in 
touch. Thank you.
    We're going to take 1 second here. You guys can go, and let 
me figure out what we're doing. Thank you.
    Senator Campbell.
    I don't have an introduction for Senator Ben Nighthorse 
Campbell. But if there was ever anybody that didn't need an 
introduction, it is him.
    We are grateful that you're here to share a few words with 
the committee, and we thank you.

         Statement of Senator Ben Nighthorse Campbell (Retired)

    Senator Campbell. Thank you, Mr. Chairman. I found that 
testimony really, really interesting and enlightening, and I 
harken back to 30 years ago when I was kind of a fixture in 
this building long before I went to Congress. And I was 
impressed then, as I am now, about the positive relationship 
with Native Americans and the State of Colorado. We've had 
some, as you know in the history of Colorado, some bleak and 
black days, and the Sand Creek Massacre is an example of one of 
them.
    But if you look around this beautiful room--I was just 
sitting in my seat in the third or fourth row there--the 
stained glass windows, four of the five, have Native Americans 
portrayed in the stain glass windows. I think that's an 
example--as those windows are also in other rooms here--that 
people in the State of Colorado and certainly the legislature 
recognize the positive important influence that the Indian 
people have had to the growth of the State.
    I have some written testimony. With your permission, I'd 
like to enter it into the record.
    Senator Bennet. Without objection.
    [The prepared statement of Senator Campbell follows:]

   Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator, 
Retired, Former Chairman, Senate Committee on Indian Affairs, Northern 
                                Cheyenne

    Mr. Chairman, thank you for your legislative efforts under 
S. 484 and S. 3504 and what they mean to American Indian 
education. I am happy to have the opportunity to provide some 
insight today regarding two very successful education programs 
for American Indians, and the unintended financial consequences 
on the States that entered into agreement with the Federal 
Government to offer these programs.
    My wife, Linda, and I live just east of Durango, CO, home 
of Fort Lewis College. My family has a long history at Fort 
Lewis College. Long before I was involved in politics, I taught 
at Fort Lewis College, Linda later served as a member of the 
board of trustees at the college, and both of our children are 
graduates of Fort Lewis. Fort Lewis College is recognized by 
the U.S. Department of Education as a Native American Serving, 
Non-Tribal College.
    Fort Lewis College is central to this discussion, because 
it is one of two institutions in the Nation, the other being 
the University of Minnesota--Morris, that offer a waiver of 
tuition for all American Indian students, under legislative 
agreements between the Federal Government and their respective 
States. I am sure that you will hear the genesis of these 
programs from others testifying today, but I feel the history 
cannot be emphasized enough.
    In the early 1900s, Fort Lewis was a former military fort, 
a remnant of the old Indian wars. It was no longer used for 
military purposes, but was instead used to educate American 
Indian youngsters. Reports from this period indicate that the 
number of students being educated at the time numbered in the 
single digits. Given the lack of long-range transportation at 
the time, these youngsters were likely Navajo or Ute children 
from the area. In 1911, the U.S. Government, in an effort to 
divest themselves of far flung, decommissioned outposts, made 
an offer to the State of Colorado to give ownership of Fort 
Lewis, and over 6,000 acres of surrounding land, to the State 
in exchange for an agreement to continue to educate American 
Indian students, tuition-free, on par with white students. The 
State agreed and Federal legislation was enacted codifying that 
agreement. During the same time period, a very similar 
legislative agreement was also struck with the State of 
Minnesota to educate Indian kids in exchange for land.
    The old Fort and adjacent land in Colorado, near the town 
of Hesperus, eventually became Fort Lewis College. In the 
1950s, Fort Lewis College moved to its current location in 
Durango, CO and the State Land Board assumed oversight and 
control of the Hesperus land. After the move, Fort Lewis 
continued its mission to educate American Indian students.
    Fort Lewis College does an outstanding job on behalf of all 
in their student body. But, they do an especially noteworthy 
job in the area of American Indian Higher Education, awarding 
more baccalaureate degrees to American Indian students than any 
4-year college or university in the United States. They also 
award more Science, Technology, Engineering and Math degrees to 
American Indian students than any other 4-year institution.
    There are 564 federally recognized American Indian tribal 
governments in the country. Another 300 or so are desperately 
seeking recognition that was stripped of them decades ago. For 
the most part, American Indians have been an overlooked, often 
ignored people, who long ago were driven from their homelands 
and hunting grounds onto postage stamp-sized reservations to 
make room for American progress, cloaked in terms such as 
Westward Expansion or Manifest Destiny. Indian people did not 
reap the benefits of the ``progress'', instead they became 
forcibly dependent on a government that promised to feed them 
and care for them as long as they stayed out of the way. The 
lands they were given were often not fit for habitation, let 
alone economic development. Their dependency increased and 
their work ethic diminished.
    When I sat as Chairman of the Senate Committee on Indian 
Affairs, I often asked Tribal Leaders about their plans for 
economic development. Many times I was told that their plan 
consisted of getting a government grant to pay for a program to 
provide a few jobs. For too many tribes, government assistance 
is all they know. But, even that is not enough. My tribe, the 
Northern Cheyenne in Lame Deer, MT, has an unemployment rate of 
78 percent that IMPROVES to 60 percent during the summer months 
when some tribal members get work on fire crews for the BLM and 
Forest Service. The Rosebud Sioux Tribe in South Dakota has the 
highest teen suicide rate in the WORLD. Indian Country has 
scores of reservations whose people still live in Third World 
conditions. They have the highest drug and alcohol abuse rates, 
the highest welfare rates, the highest suicide rates and the 
lowest mortality of any group in America.
    Decades of dependency, and a litany of social ills cannot 
be cured by government programs. It cannot be cured by well-
meaning charitable donations. While these well-meaning programs 
help, the only answer to healing what is wrong with so much of 
Indian Country is EDUCATION! Education allows young Indian 
people to see the possibilities in the world. It allows them to 
bring skills back to the reservation to help develop their 
economies, assist tribal governments, and mentor the next 
generation of young people, thus lessening the overall burden 
on stretched Federal resources. Today, most Indian youngsters 
still look at the leaders of centuries ago, Sitting Bull, 
Geronimo, Crazy Horse and others for inspiration. Education 
creates modern heroes they can identify with and be inspired 
by. That is why the work of Fort Lewis College is so important. 
Fort Lewis graduates are already making a name for themselves 
in business, engineering, and even in government, as evidenced 
by Bill Mendoza, who is testifying today, and is a valued 
member of President Obama's administration.
    One hundred years ago, the State of Colorado entered into 
an agreement that, at the time, sounded like a pretty good 
deal: Educate a handful of Indian kids each year, in exchange 
for a piece of land. Neither the State, nor the Federal 
Government could have possibly foreseen what the future would 
hold:

          Today, the Fort Lewis College Native American Tuition 
        Waiver is assisting nearly 900 American Indian students 
        in obtaining a college degree. Nearly 700 of those 
        students come from out-of-State. In fact, in the last 
        10 years alone, students attending Fort Lewis under the 
        Native American Tuition Waiver represent 46 States, 191 
        congressional districts, and 269 tribal governments.

    This has truly become a program of national scope. The 
college has embraced its mission and exceeded all expectations. 
They have done an exceptional job of educating thousands of 
American Indian students and word of their accomplishments has 
spread throughout Indian Country. However, success does have a 
price. The State of Colorado could never have foreseen that 
their agreement to provide education to Indian students in 
their region would become a national program with a cost to the 
State of over $13 million per year. In fact, the Native 
American Tuition Waiver has cost the State of Colorado over 
$120 million in the last 25 years alone, yet the value to the 
land from the Old Fort property is estimated at less than $20 
million. This deficit puts this very successful education 
program at risk. Nobody ever foresaw the rapid expansion of 
this program and thus the State and the college were unable to 
fully prepare for the rapidly rising costs.
    Thus, your bills, S. 484 and S. 3504, allow the State of 
Colorado to hold true to the original intent of the 1911 
legislation by providing tuition-free education to the area, 
in-State, Native students, while providing funding for the out-
of-State students, frozen at the levels at the time of passage, 
with the State being responsible for the continued future 
growth of the program. This gives the State a degree of relief 
from the Federal Government for this national scale program, 
without relieving the State of its long-term obligation, while 
allowing the State government a planning window to address the 
future costs and growth of the program. Though the out-of-State 
student participation at University of Minnesota Morris is much 
smaller, it would also provide the State of Minnesota similar 
relief.
    As the affected States and institutions are limited and the 
annual cost is capped, passage of this legislation will not 
allow these limited costs to grow beyond enactment. Also, it 
should be noted that this legislation is inclusive of more than 
one State and institution.
    Mr. Chairman, your legislation will not only provide relief 
to two States who have operated in good faith for more than 100 
years under terms of an agreement that has grown in scope 
beyond anyone's reasonable expectations, but it will also 
protect programs that are providing valuable educational 
opportunities where it is needed most. Every dollar spent on 
Indian education is multiplied in dollars saved in welfare and 
dependency. It raises a generation of people up to break the 
cycle of dependency. Fort Lewis College and the University of 
Minnesota Morris are teaching men and women to fish, not merely 
giving them a fish, and that is money well-spent.
    Thank you, Mr. Chairman, for your efforts to protect and 
enhance Indian education.

    Senator Campbell. And, also, if you would, pass on our 
thanks to Chairman Harkin and Ranking Member Enzi for allowing 
us to hold this hearing. I certainly appreciate their help and 
support in this.
    I was jotting some little ad lib notes on a piece of paper 
back there as I heard the testimony. And I don't know of 
anyone, Mr. Chairman, that wants to get out of the deal. 
Certainly, some errant people here in the legislature in the 
past--a couple of them have tried that, as you know. As John 
Echohawk testified, the courts slapped their fingers and said, 
``No, no. A deal is a deal. You're not going to get out of 
that.''
    But I know of nobody that wants to do that now. In fact, I 
don't know of any citizen in Colorado that wants to get out of 
the deal. They know that we have that obligation, that the 
State of Colorado signed that, and it should go on.
    But I'd like to just maybe broaden my comments a little 
bit, too, since even though it's common knowledge in Indian 
country, maybe not so much for the people that do support the 
waiver to recognize what they're supporting from a human 
standpoint. My friend, Bill Mendoza, comes from what we call a 
hard core reservation, Pine Ridge, SD. The highest unemployment 
in the Nation is in Pine Ridge, SD. The highest suicide rate in 
the Nation, to my understanding, is also Pine Ridge, SD, where 
in some years, one out of every three girls has tried suicide 
before they got out of their teenage years, and one out of 
every four boys.
    There are many other places the same. Most of us recognize 
that dependency on the Federal Government has not worked. 
Otherwise, we would not have the highest high school dropout 
rate, the highest unemployment rate, the highest suicide rate, 
the highest substance abuse rate. All the other devastating 
things that have happened to Indian people are 10 times worse 
than on the outside.
    You talk about an unemployment rate nationwide now of 
roughly 9 percent. Try 70 or 80 or 90 percent in the cases of 
some Native Alaskan communities. In Pine Ridge, I believe it's 
probably 70, maybe 80. Bill was a speaker at our little tribal 
college in Montana--Lame Deer, MT. It's called Dull Knife 
Community College. The unemployment there is 78 percent in the 
winter--a little lower in the summer because some people, 
through their courage, get jobs fighting forest fires, and 
there's a number of them that had firefighting experience over 
the years.
    But from a broader standpoint, most people recognize that 
education is the key, that if government dependency worked, why 
the heck are we in such bad shape now after 150 years of 
government dependency? There's got to be an alternative, and 
that alternative, many of us believe, is education. Now, if you 
look at what's happened to our youngsters who are getting out 
of college, whether it's the University of Minnesota Morris, 
whether it's Fort Lewis, whether it's any institution in 
America--University of New Mexico, University of Arizona, 
Northern Arizona--they graduate many Native American students.
    Now they are productive people. They haven't forgotten 
their old ways. They participate in their religions, beliefs, 
their ceremonies. They've really hung onto that, and I 
certainly commend them for that. But they've learned how to 
function in 21st century America in business, in medicine, in 
government, in literally every facet. Native Americans have the 
highest enlistment rate of any ethnic group in America in our 
military. That says something.
    It's nice to know that after years and years of silence, 
the Navajo code talkers were, in the last 15 years, really 
recognized by the president. That was President Bush. Most 
Americans recognize the contribution they've made to keeping 
this country safe. There were also Comanche code talkers and 
Lakota code talkers and others, too. But we have paid our dues.
    I have a real close connection with Fort Lewis, because I 
was kind of an accidental politician. Before I ran for office, 
I taught part-time at Fort Lewis in the Art Department. Both of 
our youngsters graduated from Fort Lewis. My wife was on the 
board of trustees. We've had a really close relationship with 
it. And I have seen firsthand the benefits, that a good 
education helps not only Indian kids, but all youngsters. But 
because of the problem we have in Indian country, it's helped, 
I believe, Indian youngsters even more.
    This bill, your bill, and the corresponding House bill, 
which has probably 8 or 10 co-sponsors on the House side now, 
as I understand it--it doesn't answer all the problems. But it 
certainly alleviates some of the problems that the State of 
Colorado is having now paying for the deal that they signed 100 
years ago.
    Lieutenant Governor Garcia mentioned--in some of my 
scribbling, if I can remember--that, in fact, the money that 
goes to Fort Lewis and the State comes from the financial aid 
fund. But that's not the only money that comes out of the 
financial aid fund. And with every increase that the State 
financial aid fund must give to Fort Lewis pursuant to the deal 
with the Federal Government, they have to decrease it to other 
colleges or to other entities that are also needed.
    And if you'll give me a little latitude, let me just be the 
devil's advocate and ask this rhetorical question. What happens 
if we don't do something? What happens, since we have twice the 
national birth rate of the Federal numbers at large and, on 
some reservations, four times the national average? Many more 
Native American youngsters are being born. What happens when 
the roughly 300 Indian tribes that are now seeking Federal 
recognition get it? Many tribes, as you know, in our history, 
were taken away from them in the 1950s under the misguided 
actions of the Federal Government when they, by virtue of their 
wisdom in Washington, said to tribes, ``You are no longer a 
tribe.''
    That was obviously a way to get out of the Federal 
Government's responsibility to tribes because the old treaties 
weren't signed between individual Indian people and the Federal 
Government. They were signed between tribes and the Federal 
Government. So some wise person back there said, ``Oh, I'll 
tell you what. What happens if we de-recognize the tribes and 
no longer recognize them as Federal entities? We don't owe the 
Indians anything.'' And that's how they got out of a lot of the 
responsibilities of the old agreements and the old treaties.
    Well, that's beginning to change. So, as I continue as the 
devil's advocate, what happens when many of the tribes who are 
seeking recognition now are re-recognized and then can avail 
themselves of the tuition waivers at Fort Lewis or Minnesota 
Morris? What happens when the number that's now, I think, 
roughly 850 Native American kids at Fort Lewis becomes 8,500 
instead of 850? That is certainly in the realm of possibility 
if you look at the last 2 years, where they've grown 10 percent 
per year, 10 percent last year and 10 percent this year, in the 
number of Native American youngsters, but also the 
corresponding amount of money the State of Colorado has to put 
in.
    Last year, it was $2 million more than the year before. 
This year, it'll be $2 million more than last year, in other 
words, $4 million more just in the time that this bill has been 
moving around, people talking about it, trying to find a 
solution, and so on. It's been several years, 3 years or so. 
It's gone up to about a $4 million cost to the State of 
Colorado, and I don't know how much to the State of Minnesota.
    We know that if we don't do something, we're on an 
unsustain-
able course somewhere along the line. Nobody wants to wait 
until that train wreck happens. Most of us believe we've got to 
take some kind of a positive action and do something before the 
fact so that we don't get to that doomsday scenario, and that's 
what this hearing is all about.
    I think that it is certainly incumbent on the Federal, 
since that was part of the deal. Nobody in those days knew that 
maybe six students would turn into 600, or some day in the 
future maybe 6,000. So we think the Federal Government has some 
responsibility under what has been defined as the trust 
responsibility.
    I thank you for this hearing. I might also add that I 
chaired hundreds of hearings back there in the dozens of 
committees I was involved with. None of mine ever went this 
smooth. So you've got the right touch, I'll tell you.
    Senator Bennet. Thank you for that. I want to just see if I 
can respond a little bit to what you said. First of all, on 
behalf of the committee, thank you for your leadership on this 
issue and also on issues that have been of concern to Native 
Americans over many years, and issues of concern to many 
people, whether Native Americans or not, all across the 
country.
    You've been respected and admired as a leader for many 
years, and I, for one, continue to appreciate your continued 
active involvement in all of this. I hope that you'll let us 
know how we can move this forward. I'd like to get us to a 
place where we're marking up the bill and we're not just 
talking about it.
    To respond to your last point, I work in a town 4 days a 
week where people consistently let matters get worse before 
they're actually addressed. And in this context, it seems that 
that would be enormously unfair to the students that are at 
Fort Lewis College today and to the students that are coming in 
the future. That's why we have to get on with this, so let's 
get this done.
    The other thing I want to respond to are your comments 
about education, because, unfortunately, these issues don't 
receive the attention that they need in our national political 
debate. You can listen to this Presidential campaign that's 
going on right now, and you wouldn't think that education 
mattered very much at all to the American people, and it 
matters an incredible amount to the people that I represent.
    I mentioned earlier at the outset that the worst the 
unemployment rate ever got for people with a college degree in 
this recession was 4.5 percent. That's the worst that it got. 
But if you're a child living in poverty in the United States, 
your chances of getting a college degree are 9 in 100. We've 
heard testimony today that that's even tougher in Indian 
country.
    If you take the changing demographics in the United States 
and just extrapolate those out over time, we know what those 
are going to be. It's completely predictable. And if the 
achievement rates and the graduation rates and the college 
attendance and completion rates don't change, we're not going 
to recognize ourselves as an economy or as a democracy.
    I think this is the central question that we face in this 
land of opportunity. I can't think of anything that is more at 
war with who we are as Americans than those college completion 
numbers and our high school graduation rates for children that 
are living in poverty, whether they're living in Indian country 
or whether they're not.
    We have to get after this, and we have to make this our 
single most important domestic priority. Otherwise, we're going 
to continue to see income inequality rise. We're going to 
continue to see opportunity shut off for millions of people in 
this country.
    Thank you for giving me that opportunity to say that. I 
want to thank all the witnesses who gave testimony today. I 
deeply appreciate your traveling here to do it. In addition to 
that great testimony, I also have a collection of resolutions 
and letters of support to introduce into the record at this 
hearing, which I will do now, including the letter that the 
Lieutenant Governor referenced from our own Governor, John 
Hickenlooper.
    [The information referred to may be found in additional 
material.]
    Throughout this hearing, we've heard about the important 
role the tuition waiver program plays in the education of 
Native American students throughout the country. Moving 
forward, I hope that we can work together to preserve these 
tuition waiver programs while also providing some degree of 
budgetary relief to the States of Colorado and Minnesota.
    The hearing record will remain open for 10 working days for 
any additional questions or statements. Once again, I want to 
thank the witnesses for traveling here today. Thank all of you 
for your interest and for being here.
    And with that, the hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

Prepared Statement of Lewis Wittry, Vice President, Associated Students 
                         of Fort Lewis College
    Mr. Chairman and members of the committee, my name is Lewis Wittry 
and I am vice president of the student body at Fort Lewis College:
    I believe that Federal funding should be provided to support the 
Native American Tuition Waiver mandated by the Federal Government in 
1911 because the conditions under which that agreement was made have 
changed dramatically since that time. The agreement was originally made 
that the State of Colorado would be granted the Old Fort Hesperus 
property on the condition that they would provide free tuition for all 
Native American students at a school on the site. At the time this was 
reasonable for the State because there was presumed to be only a 
handful of Native students to educate. In the 100 years since that 
agreement was made, an increasing amount of Native students have begun 
to take advantage of this opportunity for a free education. Today, Fort 
Lewis College's native population consists of about 860 Native American 
students from a variety of different tribes across the country, an 85 
percent majority of which are non-resident students who are receiving 
free tuition paid for by the State of Colorado, a total allocation of 
$13.7 million last year. While this means amazing things for the Native 
communities that are able to take advantage of this opportunity, it is 
a much bigger financial burden on the State budget than could ever have 
been foreseen at the time the original agreement was made. Since a 
large portion of Colorado taxpayer's money is and has for the last 100 
years been going to pay for the education of non-resident students, I 
believe that it is a reasonable request for the Federal Government to 
contribute a significant portion of the total cost of the waiver. State 
governments are supposed to provide resources for the residents of 
their State, and national governments are supposed to provide resources 
for the residents of the Nation at large. Since we are currently in a 
situation where the State of Colorado is providing a significant 
resource for students of the Nation at large, I think you should 
support the passage of S. 3504 to create a more fair situation where 
the State and Federal Government are providing for their fair share of 
the cost of educating Native American students across the country.
    In trying to formulate an opinion about this subject I kept coming 
back to the original agreement made in 1911 and what that meant about 
our State's obligation to pay for the cost of the tuition waiver. For a 
while I had a very hard time getting behind this bill because I kept 
seeing it as a way for the State to shirk it's responsibility to hold 
up its end of the agreement to educate Native students free of charge. 
And in some sense this is exactly what is being done. However, the more 
I looked at the original agreement made the more I began to think, 
``Well that's just a terrible and unrealistic agreement by today's 
standards, so we should just change the agreement.'' It was explained 
to me later that this is not technically possible because the agreement 
was made in perpetuity. That is where this bill comes in. In light of 
the fact that we cannot change the original agreement made, I think 
this bill should be passed because it solves the problem without 
changing the agreement. Essentially this bill will still require that 
tuition-free education be provided for Native students at the two non-
tribal, Native American serving institutions listed in the bill. 
However, added on to that agreement is the agreement that the Federal 
Government will help cover the increasing cost of this tuition waiver 
by providing the funds for all non-resident Native students up to $15 
million. As I stated above, the circumstances around the tuition waiver 
have changed since 1911 and the original agreement no longer makes 
sense for the State of Colorado or the State of Minnesota. This is why 
we need to alter the agreement, and it seems to me that S. 3504 is a 
reasonable way of doing that.
    The other reason I think this bill should be supported has little 
to do with any agreements made between State and country, but has more 
to do with the overall obligation I feel we as a country have to the 
Native American community. I was reading an article in our local 
newspaper sent to me by one of the administrators at our college 
regarding the tuition waiver at Fort Lewis College. A man quoted in the 
article put it very well when he talked about the tuition waiver as 
being one small victory in a long history of defeats for the Native 
American community. I think that he is right. We should not be allowing 
for this one small victory to be taken away from them, and it seems as 
though that is what might happen if the State is unable to receive help 
in funding the tuition waiver. For all of the horrors and subjugation 
that Native Americans have been put through since Europeans began to 
migrate to this land, I believe it is the moral responsibility of our 
country to make it possible to continue to honor one of the few trusts 
that has been made between the Native and non-native community. It has 
become an immense burden for our State to try and hold themselves to 
this agreement alone, and it is not a burden we should have to carry 
alone anymore. We are asking for help from the rest of the country so 
that we may continue to help the Native American community in this 
small way by offering them a free college education. A free education 
will by no means ever repay them for what their people have been and 
continue to be put through. However, it is at least a small trust that 
we have been engaged in for the last 101 years, and the mission of 
educating Native American students is one of the only sustainable ways 
to try and break the destructive cycle that the subjugation of their 
people has caused for their communities.
    Please try and see these bills not only from a purely budgetary and 
legally based standpoint, but also from a morally based standpoint. In 
forming my own opinion about this issue I have tried to ask myself, 
``Do these bills hold up according to previous legal agreements?'' But 
I have also tried to ask myself, ``Is it the right thing to do?'' I go 
back and forth as to whether or not they hold up to the original 
agreement. However, I am firmly convinced that the passage of these 
bills is the right thing to do. I encourage you to think about these 
questions in your deliberations about where you stand.
    Prepared Statement of the National Congress of American Indians
                              introduction
    The National Congress of American Indians (NCAI) is the oldest and 
largest American Indian organization in the United States. Tribal 
leaders created NCAI in 1944 as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of tribal governments, while also 
ensuring that Indian people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of tribal governments across 
the Nation.
    Ensuring access to higher education for American Indian and Alaska 
Native students is a top priority for tribes, and federally mandated 
Native tuition waivers at two institutions--Fort Lewis College in 
Durango, CO, and University of Minnesota-Morris--play a vital role in 
making this important goal a reality. For the past 100 years, both 
schools have provided tuition-free college education to American Indian 
and Alaska Native students. As a result, Fort Lewis College graduates 
some of the highest numbers of Native students per year in the 
country,\1\ and University of Minnesota-Morris enrolls more Native 
students than any other college in Minnesota.\2\ Despite this success, 
the waivers are at risk of being terminated due to severe State budget 
constraints. The Native American Education Act of 2012 (S. 3504) 
creates a Federal funding stream to ensure sustained support for these 
Native tuition waivers. Because the waivers have enabled thousands of 
Native students to become college graduates, and their continuance is 
critical to maintaining and growing that legacy, NCAI urges Congress to 
enact S. 3504 into law.
---------------------------------------------------------------------------
    \1\ U.S. Department of Education. Institute of Education Sciences, 
National Center for Education Statistics, 2011 Bachelor's Degree 
Completion Rates.
    \2\ University of Minnesota-Morris, ``American Indian Tuition 
Waiver and Student Success.'' http://www.morris.umn.edu/ . . . /
UMMAmericanIndianTuitionWaiver.pdf.
---------------------------------------------------------------------------
                               background
    The Native student tuition waivers stem from both institutions' 
roots as Indian boarding schools. In 1911, Colorado accepted title to 
the Fort Lewis Indian School, previously operated by the U.S. 
Department of the Interior. In exchange for the 6,279-acre property, 
the State agreed to maintain the school and admit Native students 
``free of charge for tuition and on terms of equality with white 
pupils.'' \3\ University of Minnesota-Morris shares this history. When 
the Federal Government transferred the campus of Morris American Indian 
Boarding School to the State of Minnesota in 1909, it stipulated that 
``Indian pupils shall at all times be admitted to such school free of 
charge for tuition.'' \4\ Today, the waivers guarantee free tuition at 
either school to all qualified members of federally recognized tribes, 
regardless of State residency.
---------------------------------------------------------------------------
    \3\ Appropriations Act of April, 4, 1910, 36 Stat. 274.
    \4\ University of Minnesota-Morris, ``American Indian Tuition 
Waiver and Student Success.'' http://www.morris.umn.edu/ . . . /
UMMAmericanIndianTuitionWaiver.pdf.
---------------------------------------------------------------------------
    Largely thanks to the tuition waiver, Fort Lewis College has become 
a flagship institution for American Indian and Alaska Native students. 
Native students comprise about 20 percent--or one in five--of the 
college's 3,900-person student body,\5\ and in 2010, it enrolled 
approximately 800 Native students representing 122 tribes from 30 
different States.\6\ Each year, Fort Lewis College awards some of the 
highest numbers of undergraduate degrees to Native students in the 
country.\7\
---------------------------------------------------------------------------
    \5\ U.S. Department of Education, Institute of Education Sciences, 
National Center for Education Statistics, College Navigator, Fort Lewis 
College (2010).
    \6\ Fort Lewis College, ``Fact Sheet 2010.'' http://
explore.fortlewis.edu/images/FLC_Facts.pdf.
    \7\ U.S. Department of Education. Institute of Education Sciences, 
National Center for Education Statistics, 2011 Bachelor's Degree 
Completion Rates.
---------------------------------------------------------------------------
    University of Minnesota-Morris has experienced similar success with 
Native students because of its tuition waiver. With a Native student 
population of more than 10 percent, it is the only university in the 
upper Midwest that qualifies for designation as a Native American 
Serving Non-Tribal Institution.\8\ This large Native student body has 
enabled University of Minnesota-Morris to build a robust American 
Indian program and community, and consequently, the school's graduation 
rates for Native students lead the University of Minnesota system.\9\
---------------------------------------------------------------------------
    \8\ Elaine Simonds-Jaradat, ``New Native American Garden Planted on 
the Morris Campus'' (July 8, 2011): http://www.morris.umn.edu/
newsevents/view.php?itemID=11784.
    \9\ University of Minnesota-Morris, ``American Indian Tuition 
Waiver and Student Success.'' http://www.morris.umn.edu/ . . . /
UMMAmericanIndianTuitionWaiver.pdf.
---------------------------------------------------------------------------
      need for the native american education act of 2012 (s. 3504)
    Funded entirely by each respective State, Fort Lewis College's 
Native tuition waiver costs Colorado approximately $13 million per 
year,\10\ and the University of Minnesota-Morris waiver costs Minnesota 
about $1.5 million per year.\11\ However, shrinking State revenues as a 
result of the recession, coupled with rising Native enrollment, have 
made it increasingly untenable for these States to shoulder the cost of 
the waivers alone. At Fort Lewis College in particular, about 85 
percent of the college's Native population is from outside Colorado, 
which means that the State must reimburse the college at the 
nonresident tuition rate of $16,072 for those students.\12\ Since the 
majority of the waiver expense comes from these out-of-state students, 
there have been several attempts to significantly cut reimbursements by 
limiting the waiver to Native students who are Colorado residents and, 
even more drastically, to terminate the program altogether.\13\
---------------------------------------------------------------------------
    \10\ Emery Cowan, ``A Historic Promise.'' Durango Herald (June 3, 
2012): http://www.durangoherald.com/article/20120603/NEWS01/706039897/
0/FRONTPAGE/A-historic-promise.
    \11\ University of Minnesota-Morris, ``American Indian Tuition 
Waiver and Student Success.'' http://www.morris.umn.edu/ . . . /
UMMAmericanIndianTuitionWaiver.pdf.
    \12\ Emery Cowan, ``Seeking Stability in FLC Tuition Waiver.'' 
Durango Herald (June 4, 2012): http://durangoherald.com/article/
20120605/NEWS01/706059914/0/s/Seeking-stability-in-FLC-tuition-waiver.
    \13\ For example, see Colorado House bill 10-1067: http://
www.leg.state.co.us/CLICS/CLICS2010A/csl.nsf/fsbillcont3/
AD316F1CAE9F98BF872576A80026AF1B?Open&fil=1067_01 .pdf.
---------------------------------------------------------------------------
    Instead of reneging on a century-old contract and denying out-of-
state Native students access to a quality, tuition-free college 
education, S. 3504 offers a better solution: shifting some of the 
waiver's cost to the Federal Government and the country as a whole. 
Sharing this responsibility makes sense in light of the fact that the 
tuition waivers benefit Native students from every corner of the United 
States--in other words, they have become national programs. At Fort 
Lewis College, for example, the five tribes with the highest number of 
students enrolled in 2011 were not from Colorado, but were Navajo 
(Arizona), Cherokee (Oklahoma), Choctaw (Oklahoma), Tlingit/Haida 
(Alaska), and Chickasaw (Oklahoma).\14\ S. 3504 directs the Secretary 
of Education to reimburse Fort Lewis College and University of 
Minnesota-Morris for the tuition of these nonresident Native students.
---------------------------------------------------------------------------
    \14\ Fort Lewis College, ``An Introduction to Federal Efforts to 
Protect the Native American Tuition Waiver.'' http://www.fortlewis.edu/
tuitionwaiver/Home.aspx.
---------------------------------------------------------------------------
    By putting the waivers on more stable financial ground, Federal 
funding through S. 3504 will help guarantee the programs' continuance--
as well as their tremendous benefits to Indian Country. The experience 
of NCAI's executive director, Jacqueline Pata, attests to the 
transformative power of the Native student tuition waiver. Three of Ms. 
Pata's four children attended Fort Lewis College. As a single parent 
with four kids just a few years apart in age--and who were thus ready 
to attend college at about the same time--college would have been out 
of the question for her family without the tuition waiver. With the 
large cost of tuition taken care of, they were able to find 
scholarships--from their tribe and other sources--to cover other 
expenses. Now that Ms. Pata's children are grown and have graduated, 
they are raising their own families and using their degrees to 
meaningfully contribute to their communities.
    The story of Ms. Pata's family is not unique in Indian Country. The 
tuition waivers at Fort Lewis College and University of Minnesota-
Morris have been a boon to thousands of Native students who could not 
otherwise afford higher education. But the waivers have had profound 
benefits not just for individual Native students, but also for American 
Indian and Alaska Native tribes. All around Indian Country, you will 
find Fort Lewis College and University of Minnesota-Morris alumni 
utilizing their college educations to improve tribal communities--as 
tribal leaders, teachers, entrepreneurs, lawyers, and engineers. As the 
statistics referenced above indicate, the tuition waivers have enabled 
Fort Lewis College and University of Minnesota-Morris to become a vital 
source of college graduates for tribes who need an educated citizenry 
to lead their governments, develop reservation economies, and sustain 
Native cultures.
    Furthermore, investing in the education of American Indian and 
Alaska Native students--and by extension, the capacity and well-being 
of tribes--is one of the most important cornerstones of the Federal 
trust responsibility. Supporting the Native tuition waivers through 
Federal funding in S. 3504 helps to fulfill this sacred duty.
                               conclusion
    Because the Native tuition waivers at Fort Lewis College and 
University of Minnesota-Morris have played such a critical role in 
expanding access to higher education for Native students, NCAI urges 
Congress to pass S. 3504.
    Thank you for your consideration of this testimony. NCAI looks 
forward to partnering with the committee to move this important piece 
of legislation forward. If you have any questions, please contact 
Ahniwake Rose, NCAI director of Human Service Policy, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbcafb2aeb89db3bebcb4f3b2afbaf3">[email&#160;protected]</a>
                                 ______
                                 
                           Letters of Support
                                 State of Colorado,
                            Office of The Governor,
                                          Denver, CO 80203,
                                                   August 17, 2012.
Hon. Michael Bennet,
458 Russell Senate Office Building,
Washington, DC 20510.

    Dear Senator Bennet: On behalf of the State of Colorado, we offer 
our support of two pieces of pending Federal legislation, S. 3504 and 
its companion, H.R. 3040. These bills represent a prudent legislative 
effort that will enhance educational opportunities in Indian Country 
and Colorado, as well as similarly impacted States.
    In 1910, the U.S. Congress created a unique connection between Fort 
Lewis College and Indian Country by giving the State of Colorado title 
to over 6,200 acres located in the southwest corner of Colorado that 
was being operated as a military fort and an Indian boarding school 
under the U.S. Department of the Interior, on condition that the school 
be ``held and maintained by Colorado as a school where Indians are 
admitted free of charge for tuition and on terms of equality with white 
pupils'' (Act of April 4, 1910, 36 Stat. 274).
    The tuition waiver program funded by the State of Colorado has 
enabled many American Indian and Alaska Native students to have high-
quality educational opportunities that they might not otherwise have 
been able to access. One hundred years ago, the originators of this 
agreement had no way to anticipate how this Federal mandate in 
perpetuity would affect the State of Colorado a century later, 
particularly with the advent of modern day transportation. The once 
desolate military fort on the border of what then were the 
``Territories'' and are now more commonly referred to as the States of 
New Mexico and Arizona, would place southwestern Colorado in a central 
location to Indian Country. Today the College is located within a 150-
mile radius of 25 Indian reservations or Pueblos, making it an 
accessible and affordable option to many students in Indian Country. At 
the time of the 1910 agreement, Indian students at Fort Lewis numbered 
in the single digits. The composition of the fall 2011 class numbered 
860 American Indian and Alaska Native students, 725 of which represent 
138 different tribes and 35 States outside of Colorado.
    For the past 100 years, Colorado has had the unique distinction of 
supporting high-quality educational opportunities in Indian Country and 
far surpassing the expectations set forth in the original agreement. 
Indeed, Fort Lewis College awards more undergraduate degrees to 
American Indian and Alaska Native students than any other 4-year 
institution in the Nation, graduates approximately 16 percent of all 
American Indian and Alaska Native students nationally, and last year 
awarded 13.5 percent of all baccalaureate science, technology, 
engineering, and mathematics (STEM) degrees earned by American Indian 
students (NSF WebCaspar).
    Today, many do not realize that despite the economic success of a 
small handful of tribes, American Indians still face poverty rates, 
substance abuse rates, suicide rates and teenage birth rates that far 
exceed the national average. The unemployment rate on many Indian 
reservations still far exceeds 50 percent. The key to ending this cycle 
is education, and Colorado is proud of our efforts to enhance 
educational opportunities for Native Americans; we simply need some 
assistance in carrying out this tremendously successful national 
program. To that end, I thank Senator Michael Bennet and Congressman 
Scott Tipton for their leadership, and the entire Colorado 
congressional delegation, as well as many Members of Congress for their 
support of this effort.
    S. 3504 and H.R. 3040 have my full support and endorsement, and I 
request that Congress assist in funding the Federal mandate upon the 
State of Colorado for reimbursement of the out-of-state students in 
Fort Lewis College Native American tuition Waiver program so that the 
program may be maintained for the continued betterment of all American 
Indian and Alaska Native people. It is the right thing to do.
            Sincerely,
                                      John W. Hickenlooper,
                                                          Governor.
                                 ______
                                 
 State of Colorado, Department of Higher Education,
           Colorado Commission on Higher Education,
                                          Denver, CO 80202,
                                                   August 17, 2012.
Hon. Michael F. Bennet,
458 Russell Senate Office Building,
Washington, DC 20510.

    Dear Senator Bennet: The Colorado Commission on Higher Education 
(CCHE) is writing to express our board's support of the Federal 
legislation which aims to fund a portion of the cost for American 
Indian students attending Fort Lewis College in Durango, CO. The CCHE 
is the central policy and statewide coordinating board for higher 
education in Colorado overseeing 31 public institutions of higher 
education. The CCHE embraces and supports all of these institutions as 
well as their unique role and mission in providing a quality post-
secondary education in the State. Fort Lewis College is unique not only 
to Colorado but to the Nation in being one of only two public 
institutions of higher education (University of Minnesota--Morris as 
the other) with the specific duty of serving and educating American 
Indians students as part of its overall role and mission.
    Given Colorado's State budgetary challenges, the cost for the Fort 
Lewis College Native American Tuition Waiver has been typically covered 
by reducing funding to the State's other financial aid programs. The 
transfers of funding from existing programs reduces the availability of 
financial aid to qualifying American Indian students--over 80 percent 
of all American Indian enrollments in the public system of higher 
education in Colorado are in institutions other than Fort Lewis 
College--as well as other students attending other institutions of 
higher education in Colorado.
    The CCHE believes that the current prospects of some Federal 
funding to mitigate these costs at the State level are an effective and 
reasonable course of action that will provide a financially sustainable 
solution to help ensure that Fort Lewis College remains accessible to 
all American Indian students from all regions of the country. The CCHE 
reiterates its strong support of Fort Lewis College and celebrates its 
ever increasing success in educating American Indian students across 
the Nation.
            Sincerely,
                                  Hereford Percy, Chairman,
                           Colorado Commission on Higher Education.
                                 ______
                                 
           Cherokee Nation<SUP>T</SUP><SUP>M</SUP>,
                                  Tahlequah, OK 74465-0948,
                                                      May 11, 2011.
Hon. Dale Kildee, Co-Chairman,
House Native American Caucus.

Hon. Tom Cole, Co-Chairman,
House Native American Caucus.

Re: Support for Fort Lewis College Legislation

    Dear Chairman Kildee and Chairman Cole: On behalf of the Cherokee 
Nation, I am writing to express our support for the proposed 
legislation offered by Congressman Tipton for the Fort Lewis College 
Native American Tuition Waiver Program. For the past century, the 
institution has provided Native Americans who qualify with tuition-free 
education as mandated by the U.S. Congress. By covering tuition costs 
for Native American students, the State of Colorado has given tribal 
citizens access to a first-rate education and opportunity for success.
    Because the Colorado school currently provides higher education to 
Native American students from 124 different tribes (including the 
Cherokee Nation) and 34 States, Cherokee students would also be 
affected by funding cuts to the program. If this legislation does not 
pass, Colorado leaders might try again to cut the Native tuition waiver 
program due to State budget constraints. As introduced, the Tipton bill 
would use Federal dollars to reimburse Colorado for the cost of out-of-
state Native American students' tuition--helping to guarantee that all 
qualified Native American students receive tuition waivers regardless 
of State residence.
    Therefore, this Bill is especially pertinent to the Cherokee Nation 
because many of our students at Fort Lewis are from out-of-state and 
need the funding protection guaranteed by this legislation:

    <bullet> Over the past 10 years, 1,179 free tuition waivers were 
granted to members of the Cherokee Nation, of which only 449 were 
Colorado residents.
    <bullet> On average, 118 tuition waivers are granted per year to 
members of the Cherokee Nation.
    <bullet> The average GPA for Cherokee Nation students is 3.20.
    <bullet> 38 percent of Cherokee Nation students graduated with 
honors (Cum Laude, Magna Cum Laude, or Summa Cum Laude).
    <bullet> 29 percent of Cherokee Nation graduates were first-
generation college students, meaning neither parent attended college.

    I respectfully urge that Congress fully fund the State of 
Colorado's Federal mandate for reimbursement of the Fort Lewis College 
Native American Tuition Waiver Program so that our tribal citizens and 
children will continue to receive a first-class education. Tribes have 
witnessed disparities in Native American education services for too 
long; therefore, we must protect successful institutions like Fort 
Lewis College.
    Once again, it is my desire that you support Congressman Tipton's 
legislation and stand with the Cherokee Nation by promoting Native 
American education. Educated Americans, including tribal citizens, 
strengthen the United States by providing a skilled, diversified 
workforce that fuels the economy. For further information, please 
contact our Washington Office Legislative Officer, Clint Bowers, at 
202-393-7007 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="77141b1e19035a15180012050437141f1205181c12125918051059">[email&#160;protected]</a>
            Sincerely,
                                                Chad Smith,
                                  Principal Chief, Cherokee Nation.
                                 ______
                                 
                                 State of Colorado,
             Colorado Commission of Indian Affairs,
                                          Denver, CO 80203,
                                                       May 9, 2011.
President Dene Kay Thomas,
Fort Lewis College,
1000 Rim Drive,
Durango, CO 81301.

    Dear President Thomas: The U.S. Congress created in 1910 a unique 
connection between Fort Lewis College and Indian Country by giving the 
State of Colorado title to the Fort Lewis Indian School, previously 
operated by the U.S. Department of the Interior, on condition that the 
school be ``held and maintained'' by Colorado as a school where Indians 
are admitted ``free of charge for tuition and on terms of equality with 
white pupils'' (Appropriations Act of April 4, 1910, 36 Stat. 274).
    Today Fort Lewis College is Colorado's Public Liberal Arts College 
that has for the past 100 years provided a tuition-free education to 
qualifying American Indian and Alaska Native students and was the 
educational home to 786 American Indian and Alaska Native students from 
124 tribes and 34 States in 2010.
    The State of Colorado has for the past 100 years had the 
distinction of supporting one of only two colleges in the Nation that 
offers American Indian and Alaska Native students from any federally 
recognized tribe a tuition waiver and, in fall 2010, has provided the 
tuition for 668 of its 786 American Indian and Alaska Native students 
who are residents from 33 other States.
    Fort Lewis College awards more undergraduate degrees to American 
Indian and Alaska Native students than any other 4-year institution in 
the Nation, graduates approximately 16 percent of all American Indian 
and Alaska Native students nationally, and last year awarded 13.5 
percent of all baccalaureate science, technology, engineering and math 
(STEM) degrees earned by Indian people (NSF WebCASPAR 2009).
    The Fort Lewis College Native American Tuition Waiver has enabled 
American Indian and Alaska Native students to access top-quality 
educational opportunities and academic success, which they might not 
otherwise have been able to enjoy, and these many students have used 
this education provided for the betterment of their tribes and Indian 
Country as a whole (indeed, many of today's Indian leaders are Fort 
Lewis College graduates or have a Fort Lewis student or alumni in their 
family).
    Nothing in Senate bill 484 would relieve Colorado of its 
responsibility to reimburse Fort Lewis College the cost of tuition for 
American Indian and Alaska Native students who are residents of 
Colorado or any cost of tuition that exceeds the Federal funding 
proposed in S. 484 for American Indian and Alaska Native students who 
are not residents of Colorado.
    Therefore, the Colorado Commission of Indian Affairs, which 
includes representatives from the Southern Ute Indian Tribe and Ute 
Mountain Ute Tribe as voting members, does unanimously support Senate 
bill 484 and request that Congress fund the Federal mandate upon the 
State of Colorado for reimbursement of the Fort Lewis College Native 
American Tuition Waiver program so that this program may be maintained 
for the continued betterment of all American Indian and Alaska Native 
people.
            Sincerely,
                     Joseph A. Garcia, Lieutenant Governor,
                      Chair, Colorado Commission of Indian Affairs.
                                 S6621_
                                 
                       Native American Rights Fund,
                                    Boulder, CO 80302-6296,
                                                    April 20, 2011.

    To Whom It May Concern: As executive director of the Native 
American Rights Fund, I have met with representatives of Fort Lewis 
College about S. 484, a bill sponsored by Senators Bennet and Udall of 
Colorado, which would direct the Secretary of the Department of 
Education to pay the Fort Lewis College in the State of Colorado an 
amount equal to the tuition charges for Indian students who are not 
residents of the State of Colorado. The Native American Rights Fund is 
in full support of S. 484 and hopes that it is passed by Congress and 
signed by the President as soon as possible.
    The Native American Rights Fund, having been involved in the 
litigation in the 1970s enforcing the Indian tuition waiver, is aware 
of the importance of the Indian tuition waiver to Indian students 
across the country and the outstanding record of Fort Lewis College in 
graduating Indian students over the years. We believe that the Indian 
tuition waiver needs to be continued and that Federal funding for Fort 
Lewis College to cover tuition charges for non-resident Indian students 
as provided in S. 484 would ensure that the Indian tuition waiver 
continues.
            Sincerely,
                                          John E. Echohawk.
                                 ______
                                 
Hon. Michael Bennet,
U.S. Senate,
458 Russell Senate Office Building,
Washington, DC 20510.

Re: S. 484 & S. 3504

    Dear Senator Bennet: The Native American Tuition Waiver is 
definitely a controversial issue, and I feel it necessary to express my 
sentiments.
    I am a non-traditional, first-generation, Native American student. 
I come from a small community in Southeast Alaska where most of my 
friends and peers are Alaskan Native. I grew up where my cultural 
values were a solid, integrated part of my life; where higher education 
was not necessarily an expectation. I say this only to prove the 
necessity of the Native American Tuition Waiver, particularly at Fort 
Lewis College.
    Generations of Native American students are still willing to 
further their education because of their homelands and families; these 
students want to make a difference. They represent a significant part 
of not only our history, but of our future.
    The Native American Tuition Waiver serves more than just a few 
purposes. Perhaps one of the greatest purposes that goes overlooked is 
that it brings us together. For those of us who wish to further our 
education and have an impact in life, having other like-minded people 
with similar life experiences only serves to benefit our educational 
goals. At Fort Lewis College, 120 different tribes, villages, bands, 
and corporations are represented. This allows us to be diverse, yet 
similar. Our Native American population adds a great dimension to the 
diversity at our school.
    At Fort Lewis College, the Native American Center offers itself as 
an excellent resource for any campus needs. With several first-
generation students, they are there to offer academic support as well 
as cultural, and social. This is yet one more reason to reiterate the 
necessity of Native American Tuition Waiver. It is bringing minority 
students together and allowing us to succeed.
    American Indian Business Leaders (AIBL) and American Indian Science 
and Engineering Society (AISES) have both won awards for Fort Lewis 
College; Wanbli Ota, who puts on the largest student run event every 
year for our campus, and Miss Hozhoni who serves as an ambassador for 
the Native American students highlight meaningful pieces of our Native 
American student body. The Native American Honor Society, Pejuta Tipi 
Society, and Native American and Indigenous Leadership Forum (NAILF) 
are all great initiatives taken by our successful Native American 
students who want to make a difference.
    Looking at the poverty statistics and the drop-out rates of 
American Indian and Alaskan Native students can be heart-wrenching as 
an indigenous person. Because of the Native American Tuition Waiver I 
have been a successful student at Fort Lewis College.
    I support the continuation of the Native American Tuition Waiver.
            Sincerely,
                                            Alysha Guthrie.
                                 ______
                                 
                                           August 16, 2012.
Hon. Michael Bennet,
U.S. Senate,
458 Russell Senate Office Building,
Washington, DC 20510.

Re: S. 484 & S. 3504

    Da Go Te Greetings Senator Bennet: Fort Lewis College is more than 
an institute of Higher Education; it's a place of hope for many 
American Indian students. Historically this institute represented a 
State of civilizing the Indian by washing the students of their 
traditional cultures. Fortunately over time great efforts have been 
made and continue to be implemented so that all individual backgrounds, 
beliefs and lifestyles are respected. The tuition waiver for Native 
Americans at Fort Lewis College has provided generations of American 
Indians to succeed and for many it may not have been possible without 
the unique opportunity promised by the agreement between our Indigenous 
ancestors and the U.S. Government.
    According to social psychologist and Native American scholar, Dr. 
Fryberg, only .4 percent of doctoral degrees are awarded to American 
Indians and only .5 percent of university faculty are American Indian 
(Fryberg & Stephens, 2010). This study goes on to state that if 
students have the ability to bring positive academic social 
representations to mind (i.e., people they know who went to college) it 
impacts their feelings of belonging.
    At Fort Lewis College, I have experienced positive feelings of 
belonging and enhanced self-esteem because the environment encourages 
individuality and interdependency, as well as diversity. I would credit 
this positive change to my fellow colleagues and classmates, the 
faculty and professors as well as the administrators.
    In order to learn one must feel safe. I am a senior majoring in 
psychology with a minor in Native American Indigenous Studies. My 
tribes are White Mountain Apache and San Carlos Apache from Arizona. In 
my research of Native American historical trauma and compassion, I have 
come to the conclusion that when the brain, spirit, and body experience 
trauma they cannot learn until they feel safe again. Coming from a 
reservation of despair; staggering unemployment, suicide, and teen 
pregnancy rates, there is little hope. When I left home for college I 
did not realize how my experiences would bring a new perspective in the 
classroom and help ``outsiders'' understand. I also didn't understand 
that I needed to feel safe in order to express, share, and learn. 
Fortunately my professors and classmates provide a culture on campus 
that allows for reciprocal learning.
    I have had incredible opportunities to share my stories and Apache 
culture with the outside world. I have been blessed to have the support 
system from departments, faculty, students and mentors. The campus has 
allowed for many students to feel safe and comfortable with who they 
are and where they come from. Personally, I have found hope and it 
gives me courage. Courage to take advantage of opportunities offered at 
Fort Lewis. A few experiences stand out; after being elected a student 
senator (ASFLC 2010-11) I had the privilege of writing the resolution, 
``Striving for Common Ground,'' which promotes open-mindedness of all 
backgrounds. This passed during the centennial year of Fort Lewis 
College, 1911-11. I have also been blessed to meet with a political 
activist and Tibetan nun. Her friends invited me to speak annually at a 
Tibetan camp in New York where I share my Apache language, tradition 
and culture. I share the message of my elders; we need to balance ones 
American identity and ones Indigenous identity in order to sustain who 
we are. I love the simple yet powerful statement, I am because we are. 
I have been blessed to be a research assistant for an NIH (National 
Institute of Health) grant that allows me to study Native American 
Historical trauma and compassion. This grant has prepared me for 
graduate school and the hopes of becoming the first social psychologist 
with a doctorate of my tribe. I also plan to become the first Native 
American professor in the psychology department at Fort Lewis College. 
All of these experiences would not have been possible without the 
fabric of people, the tuition waiver, and the environment at Fort Lewis 
College.
    Support and encouragement of students is seen and heard throughout 
Indian country. Our elders, leaders and family members tell us to use 
education as a way of being successful and more importantly as a way to 
help our families, clan kinship, and tribal communities. In order to 
prepare for the next generation, Indigenous students must honor their 
responsibilities and create positive relationships with American 
education systems. Traditionally college is a place for white students 
to find themselves and express their independence and individuality. 
This tends to be different for most Indigenous students because most 
tribes and clanship exist on interdependent relationships. For Natives 
like myself, college is a time when we leave our reservations, and 
interact in an entirely different social context. Statistically the 
odds may be against me and yet I feel hopeful and motivated every 
semester.
    As I approach my senior year, I look back on my time at Fort Lewis 
and have feelings of gratitude and hope. I am grateful for the many 
opportunities that only a unique place like Fort Lewis can offer both 
Native and non-Native students. Students like me that identify as a 
single parent raising my two sisters; as a first generation college 
student; as an Apache woman; as a Native American determined to make a 
positive difference in her community. I am also incredibly grateful to 
my Indigenous ancestors that prepared for my future. The Southern Ute 
and Ute Mountain Ute tribes committed an act of complete selflessness 
when they humbly requested that in return for their ancestral lands the 
U.S. Government must allow all Indian students to attend tuition 
waivered and to be treated equal to their white pupils. I honor this 
sacred trust by sharing my experiences at Fort Lewis and by identifying 
as a proud Native American student and soon to be alumni.
    Ashook. Thank you for your time,
                                               Noel Altaha,
                                       White Mountain Apache Tribe,
                                                     Class of 2013.
                               reference
Fryberg, S.A., & Stephens, N.M. (2010). When the world is colorblind, 
    American Indians are invisible: A diversity science approach. 
    Psychological Inquiry, 21, 115-119. doi: 10.1080/
    1047840X.2010.483847.
                                 ______
                                 

    Rank Order of States With the Highest Number of American Indian Tuition Waiver Recipients From 2000-2010
----------------------------------------------------------------------------------------------------------------
                           State                                      Number of tuition waivers received
----------------------------------------------------------------------------------------------------------------
New Mexico.................................................  4,163
Arizona....................................................  3,205
Colorado...................................................  2,513
Alaska.....................................................  1,449
Oklahoma...................................................  1,014
Utah.......................................................    368
South Dakota...............................................    249
California.................................................    230
Texas......................................................    227
Washington.................................................    222
Montana....................................................    125
Nevada.....................................................    97
Wyoming....................................................    92
Oregon.....................................................    76
Kansas.....................................................    65
Idaho......................................................    63
Nebraska...................................................    58
Wisconsin..................................................    54
Missouri...................................................    49
Virginia...................................................    45
Minnesota..................................................    39
North Carolina.............................................    38
North Dakota...............................................    33
Illinois...................................................    32
Arkansas...................................................    30
Ohio.......................................................    26
New York...................................................    23
Massachusetts..............................................    22
Michigan...................................................    21
Tennessee..................................................    21
                                                            ----------------------------------------------------
    Grand Total............................................  14,763
----------------------------------------------------------------------------------------------------------------

                              Resolutions
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 10:47 a.m., the hearing was adjourned.]

                                 

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
